No. ____
IN THE

Supreme Court of the United States
_________

DORIAN JOHNSON,

Petitioner,

v.
CITY OF FERGUSON MISSOURI, ET AL.,
Respondents.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
PATRICIA E. ROBERTS
WILLIAM & MARY LAW
SCHOOL APPELLATE AND
SUPREME COURT CLINIC
P.O. Box 8795
Williamsburg, VA 23187
Telephone: 757-221-3821

TILLMAN J. BRECKENRIDGE*
AARON J. GOLD
PIERCE BAINBRIDGE
BECK PRICE & HECHT LLP
601 Pennsylvania Ave., NW,
South Tower, Suite 700
Washington, DC 20004
Telephone: 202-759-6925
tjb@piercebainbridge.com

*Counsel of Record

Counsel for Petitioner

QUESTION PRESENTED
A “seizure” occurs under the Fourth Amendment
when, under the totality of the circumstances, “a
reasonable person would believe he was not free to
decline the officers’ requests or otherwise terminate
the encounter.” Here, Officer Wilson delivered a
harshly delivered “move on” order to Johnson and his
friend, Michael Brown on a public street, blocked
Johnson’s path with his police cruiser, drew his
sidearm, fired it, and killed Brown. The question
presented is whether a person can be “seized” when he
is not confined to a particular space.



ii
PARTIES TO THE PROCEEDINGS AND
RELATED PROCEEDINGS
The Petitioner in this case is Dorian Johnson, an
individual. Petitioner was the plaintiff and appellee
below.
The Respondents are the City of Ferguson,
Missouri; Thomas Jackson and Darren Wilson, who
are individuals. Respondents were the defendants
and appellants below.
The related proceedings are:
1) Johnson v. City of Ferguson, No. 4:15-cv003832 AGF (E.D. Mo.) – Judgment entered
March 15, 2017; and
2) Johnson v. City of Ferguson, No. 16-1697 (8th
Cir.) – Judgment entered June 17, 2019.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDINGS AND
RELATED PROCEEDINGS ...................................... ii
TABLE OF AUTHORITIES ....................................... v
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 2
JURISDICTION ......................................................... 3
STATUTORY PROVISIONS INVOLVED ................ 3
STATEMENT OF THE CASE ................................... 3
REASONS FOR GRANTING THE WRIT ................. 5
I.

THE CIRCUITS ARE DIVIDED
ON WHETHER AND WHEN AN
OFFICER’S ORDER TO LEAVE
A PLACE CONSTITUTES A
SEIZURE. .............................................. 5
A.

The Sixth Circuit Holds
that “Move On” Orders
Can Be Seizures, While the
Second and Eighth Circuits
Rule They Do Not. ...................... 5

iv
B.

The Sixth Circuit was
Correct to Hold that a
“Move On” Order can be a
Seizure, and in this Case a
Seizure Occurred. ....................... 9

II.

THIS CASE PRESENTS A
QUESTION OF EXCEPTIONAL
IMPORTANCE.................................... 12

III.

THIS CASE IS AN EXCELLENT
VEHICLE TO RESOLVE THE
QUESTION PRESENTED. ................ 17

CONCLUSION ......................................................... 19
APPENDICES
APPENDIX A: Opinion of the United States
Court of Appeals for the Eighth Circuit
(June 17, 2019) .................................................... 1a
APPENDIX B: Opinion of the United States
Court of Appeals for the Eighth Circuit
(June 31, 2017) .................................................. 15a
APPENDIX C: Opinion of the United States
District Court for the Eastern District of
Missouri (March 15, 2016) ................................ 34a
APPENDIX D: 42 U.S.C. § 1983 ............................ 63a

v
TABLE OF AUTHORITIES
Page(s)
Cases

Bennett v. City of Eastpointe,

410 F.3d 810 (6th Cir. 2005) ........................ passim

Beverlin v. Grimm,

No. 94 C 2834, 1995 WL 470274
(N.D. Ill. Aug. 4, 1995) ......................................... 14

City of Chicago v. Morales,

527 U.S. 41 (1999) ................................ 1, 12, 13, 16

Dinan v. Multnomah Cty.,

No. 3:12-CV-00615-PK, 2013 WL
324059 (D. Or. Jan. 28, 2013) ........................ 14, 15

Florida v. Bostick,

501 U.S. 429 (1991) ...................................... passim

Goodwater v. Cty. of Charleston,

No. 2:17-CV-00998, 2018 WL 827132
(D.S.C. Feb. 12, 2018) .......................................... 16

Hamilton v. Vill. of Oak Lawn, Ill.,

735 F.3d 967 (7th Cir. 2013) .................................. 8

Hebert v. Reynolds,

No. 207-CV-91, 2009 WL 3010510
(N.D. Ind. Sept. 15, 2009) ................................ 7, 14

vi
TABLE OF AUTHORITIES
(CONTINUED)

Jones v. Ashford,

No. CV TDC-14-3639, 2017 WL
221783 (D. Md. Jan. 18, 2017), aff’d,
691 F. App’x 113 (4th Cir. 2017) ................... 10, 15

Joseph v. Dillard’s, Inc.,

No. CV-08-1478 PHXNVW, 2009 WL
5185393 (D. Ariz. Dec. 24, 2009) ................... 10, 15

Kaupp v. Texas,

538 U.S. 626 (2003) .............................................. 11

Kernats v. O’Sullivan,

35 F.3d 1171 (7th Cir. 1994) ........................ passim

Mora v. The City of Gaithersburg, MD,

519 F.3d 216 (4th Cir. 2008) ................................ 12

Muhammad v. Chicago Bd. of Educ.,

No. 94 C 522, 1995 WL 89013 (N.D.
Ill. Feb. 24, 1995) ................................................. 11

O’Boyle v. Thrasher,

638 F. App’x 873 (11th Cir. 2016) ....................... 14

Papachristou v. City of Jacksonville,

405 U.S. 156 (1972) .............................................. 13

Salmon v. Blesser,

802 F.3d 249 (2d Cir. 2015) ................. 7, 14, 17, 18

Sheppard v. Beerman,

18 F.3d 147 (2d Cir. 1994) ..................... 6, 9, 10, 17



vii
TABLE OF AUTHORITIES
(CONTINUED)

Silvan W. v. Briggs,

309 F. App’x 216 (10th Cir. 2009) ............. 8, 14, 16

Tajalle v. City of Seattle,

No. C07-1509Z, 2008 WL 630061
(W.D. Wash. Mar. 7, 2008) ................ 11, 14, 15, 16

Terry v. Ohio,

392 U.S. 1 (1968) .................................................. 18

United States v. Drayton,

536 U.S. 194 (2002) ........................................ 10, 18

United States v. Mendenhall,

446 U.S. 544 (1980) ...................................... 7, 9, 11

United States v. Roberson,

864 F.3d 1118 (10th Cir. 2017), cert.
denied, 138 S. Ct. 2649, 201 L. Ed.

2d 1053 (2018) ...................................................... 10

United States v. Schettler,

32 F. App’x 14 (3d Cir. 2002) ............................... 14

United States v. Smith,

332 F. Supp. 2d 277 (D. Mass. 2004),
rev’d on other grounds, 423 F.3d 25
(1st Cir. 2005) ....................................................... 10

White v. City of Markham,

310 F.3d 989 (7th Cir. 2002) .................................. 8

Williams v. Fears,

179 U.S. 270 (1900) .............................................. 13



viii
TABLE OF AUTHORITIES
(CONTINUED)

Youkhanna v. City of Sterling Heights,

934 F.3d 508 (6th Cir. 2019) .................................. 6

Statutes
28 U.S.C. § 1254 .......................................................... 3
Other Authorities
Eric L. Adams, More Scrutiny, Better
Policing, N.Y. Times, Nov. 14, 2015 .................... 17
John Felipe Acevedo, Restoring

Community Dignity Following Police
Misconduct, 59 How. L.J. 621, 622

(2016) ................................................................ 2, 16

Elizabeth Davis, et al., Contacts

Between Police and the Public, 2015 .................. 13

Stephen E. Henderson, “Move on”

Orders as Fourth Amendment
Seizures B.Y.U. L. Rev. 1, 22–30

(2008) ............................................................ passim

Katherine E. Kinsey, It Takes A Class:

An Alternative Model of Public
Defense, 93 Tex. L. Rev. 219, 224

(2014) .................................................................... 16



1
INTRODUCTION
When Officer Wilson told Dorian Johnson and
Michael Brown to “[g]et the f*ck on the sidewalk,”
parked his car in their path, and ultimately shot at
them, Johnson held a reasonable belief that he was
not free to completely disregard the officer—he was
seized. The Eighth Circuit, sitting en banc overruled
the panel decision and determined that Johnson was
not seized because he was “free to go anywhere else.”
This case thus presents the question of whether a
person can be seized when he is not confined to a
specific place—particularly in the context of a move on
order followed by a show of authority.
Three justices remarked in City of Chicago v.
Morales, 527 U.S. 41, 53 (1999) (opinion by Stevens,
J. joined by Souter and Ginsburg, J.J.), that “an
individual’s decision to remain in a public place of his
choice is as much a part of his liberty as the freedom
of movement,” and the Court has observed that in
many situations a person “has no desire to leave” a
place, “the degree to which a reasonable person would
feel that he or she could leave is not an accurate
measure
of
the
coercive
effect
of
the
encounter,” Florida v. Bostick, 501 U.S. 429, 435
(1991). Despite this foreshadowing, the Court has
never squarely ruled that constraining a person’s
liberty by ordering him or her to move on constitutes
a seizure. This Court should now make the logical
implication explicit and confirm the Fourth
Amendment seizure in a move on order to provide
needed guidance to the lower courts.
Millions of people encounter police each year, and
for many reasons, police officers tell them to move on
from one place to another. Kernats v. O’Sullivan, 35

2
F.3d 1171, 1185 (7th Cir. 1994) (Crabb,
J. dissenting). And “[t]he public at large grows ever
more concerned with “the problem of police
misconduct,” John Felipe Acevedo, Restoring
Community Dignity Following Police Misconduct, 59
How. L.J. 621, 622 (2016). Without direction from
this Court, the courts below have reached their own—
widely differing—conclusions about whether people
can seek redress under the Fourth Amendment for
orders to “move on.”
Furthermore, this case is an ideal vehicle to decide
this matter because: (i) it squarely presents the issue
of whether a move on order can ever constitute a
seizure; (ii) it allows the Court to decide what show of
authority in addition to a move on order will effectuate
a seizure; and (iii) there are no preliminary disputed
issues that would prevent a resolution of the question
presented, as the seizure issue was squarely decided
by the en banc panel below.
For these reasonable those that follow, the Court
should grant the petition and reverse the judgment
below.
PETITION FOR A WRIT OF CERTIORARI
Petitioner Dorian Johnson respectfully petitions
this Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Eighth Circuit in this case.
OPINIONS BELOW
The Eighth Circuit’s en banc opinion is reported at
926 F.3d 504, and is reproduced at page 1a of the
appendix to this petition. (“App.”). The Eighth
Circuit’s initial panel opinion is reported at 864 F.3d
866, and is reproduced at page 15a of the appendix to



3
this petition. The opinion of the District Court for the
Eastern District of Missouri is currently unreported,
but is reproduced at page 34a of the appendix to this
petition.
JURISDICTION
The judgment of the Eighth Circuit was entered on
June 17, 2019. App. 1a. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The text of the relevant statute is set forth in the
appendix to this petition. App. 63a.
STATEMENT OF THE CASE
Factual Background: At noon on an April day
in 2014, Johnson, along with his companion Michael
Brown, Jr. “peacefully and lawfully” walked down
Canfield Drive in Ferguson, Missouri. App. 34a.
Officer Wilson passed them in his marked patrol car
and ordered them to “[g]et the f*ck on the sidewalk”
as he rolled past. App. 35a. Wilson continued a few
yards but then threw his car into reverse and stopped
his car at an angle in the road inches from Johnson
and Brown, blocking their path. App. 35a, 46a.
Wilson then thrust his door open, striking Brown in
the process. App. 35a. At or about the same time, he
reached through his window to grab Brown and
threaten him with his handgun. Id. Brown struggled
to break free and during the ensuing grapple Wilson
fired his gun twice, striking Brown’s arm. Id. Fearing
for their lives, Johnson and Brown simultaneously
turned and ran to escape from Wilson. Id. Without
warning the two fleeing men, Wilson again drew his
weapon and began firing at their backs. Id. Johnson
was not hit but Brown was not so lucky; Wilson



4
continued to fire his weapon and killed Brown as a
result. Id.
Procedural Background: Johnson sued Wilson,
Police Chief Jackson and the City of Ferguson in the
Saint Louis County Circuit Court. App. 16a. Johnson
alleged, among other counts, that Wilson violated his
Fourth Amendment rights against unreasonable
seizure and excessive force. Id. He further alleged
that the City of Ferguson and Chief Jackson engaged
in policies that resulted in the violation of Johnson's
civil rights, including failure to train and supervise
officers and condoning unconstitutional lawenforcement practices. Id.
Defendants moved to dismiss Johnson’s complaint,
arguing, among other things, that Johnson failed to
state a claim for excessive force because no seizure
occurred under the Fourth Amendment. App. 16a,
47a. The district court rejected that argument and
denied the motion, finding that the totality of the
circumstances suggested a seizure occurred. App.
47a.
Defendants appealed, and the Eighth Circuit panel
identified “[t]he crux of the motion to dismiss and th[e]
resulting appeal centers on the issue of whether there
was a seizure” of Johnson. App. 18a. The court
decided that there was, citing Wilson’s harsh
command and subsequent blocking of Brown and
Johnson’s path coupled with Johnson lingering on the
scene prior to fleeing gunfire. App. 18a–23a. As such,
the panel affirmed the district court. App. 32a.
The Sixth Circuit later reversed the panel’s
decision en banc in a 7–4 decision. App. 1a. The en
banc panel stated that Johnson could not have been
seized because Wilson did not order him and Brown to



5
stop. App. 3a. According to the en banc panel “rather
than complying” with Wilson’s order, Johnson
voluntarily remained in the road and his subsequent
flight proves that neither officer Wilson nor his
parked car prevented Johnson from doing so. Id. The
panel thus reasoned that “absence of any intentional
acquisition of physical control terminating Johnson’s
freedom of movement through means intentionally
applied” means that “no seizure occurred.” App. 4a.
The en banc dissenters explained that Wilson’s
command that Johnson remit to the sidewalk is
known as a “move on” order, meaning that Johnson
was “free to go anywhere else” but could not “remain
where he [was].” App. 9a. Although this was an order
to leave and not a command to remain, Wilson’s
actions conveyed that Johnson “was not at liberty to
ignore the police presence and go about his business.”
App. 11a (quoting Bostick, 501 U.S. at 437). Because
Johnson remained in place after Wilson’s show of
authority, the dissent concluded that Wilson seized
Johnson.
REASONS FOR GRANTING THE WRIT
I.

THE CIRCUITS ARE DIVIDED ON
WHETHER AND WHEN AN OFFICER’S
ORDER TO LEAVE A PLACE
CONSTITUTES A SEIZURE.
A. The Sixth Circuit Holds that “Move On”
Orders Can Be Seizures, While the Second
and Eighth Circuits Rule They Do Not.

The circuit courts cannot agree whether and when
a police order to “move on” or leave an area constitutes
a seizure. See Stephen E. Henderson, “Move on”
Orders as Fourth Amendment Seizures, 2008 B.Y.U.
L. Rev. 1, 22–30 (2008) (describing the “disparate



6
results” and inconsistent and reasoning when the
federal courts confront “move on” orders). Although
many have so far avoided the question, id., the Sixth
Circuit has come to one conclusion, while the Second
Circuit—and with this case, the Eighth—disagree.
In Bennett v. City of Eastpointe, the Sixth Circuit
held that “move on” order could be a Fourth
Amendment seizure. 410 F.3d 810, 834 (6th Cir.
2005). There, a police officer in Eastpointe, Michigan
encountered three black youths riding their bikes one
evening behind closed businesses. Id. at 833. The
officer drove by “making eye contact with the youths,”
and “continued on his way” but retuned “five minutes
later” to “see the youths still riding in the same place.”
Id. After a cursory interrogation of the boys, the
officer ordered them to return to nearby Detroit and
thereafter watched them walk their bikes across a
nearby street and leave the area. Id. The Sixth
Circuit noted that officer did not “physically escort[]”
the children across the street. Id. at 834. The court
observed the inquiry for the seizure question is
“whether a reasonable person would believe he was
‘not free to decline the officers’ requests or otherwise
terminate the encounter.’” Id. (quoting Bostick, 501
U.S. at 439). Accordingly, the Sixth Circuit held that
a person is seized “when a reasonable person would
not feel free to remain somewhere, by virtue of some
official action,” not just when a person “would not feel
free to leave an encounter with police.” Id. (emphasis
in original); see also Youkhanna v. City of Sterling
Heights, 934 F.3d 508, 523 (6th Cir. 2019) (noting that
it can be a seizure when police order a person to move
from a public place).
In Sheppard v. Beerman, the Second Circuit ruled
that that ordering someone to leave a public place did



7
not amount to a seizure. 18 F.3d 147, 153 (2d Cir.
1994). There, court officers directed a fired law clerk
to leave the courthouse. Id. at 150. According to the
Second Circuit, the salient inquiry was whether “in
view of all the circumstances surrounding the
incident, a reasonable person would have believed
that he was not free to leave.” Id. at 153 (quoting
United States v. Mendenhall, 446 U.S. 544, 554
(1980)). The court concluded that because the law
clerk was “free to go anywhere else that he desired”
outside of the courthouse, he was not seized. Id. The
Second Circuit further explained its position in
Salmon v. Blesser, 802 F.3d 249 (2d Cir. 2015).
According to the court, “police may take a person by
the elbow or employ comparable guiding force short of
actual restraint to ensure obedience with a departure
order.” Id. “[A]s long as the person is otherwise free
to go where he wishes” he is not seized. Id.
Although not citing Sheppard, the Eighth Circuit
en banc majority adopted similar reasoning in this
case. According to the court, Johnson could not have
been seized, in part, because “neither he nor Brown
was ordered to stop and to remain in place” and “he
was able to leave the scene following the discharge of
Wilson’s weapon.” App. 3a.
Other courts have so far dodged the question.
“The Seventh Circuit has had several opportunities to
decide whether a situation like this rises to the level
of a Fourth Amendment seizure; but the issue
remains unresolved.” Hebert v. Reynolds, No. 207-CV91, 2009 WL 3010510, at *5 (N.D. Ind. Sept. 15, 2009).
In Kernats, a § 1983 action, a landlord sought to evict
a family from their home. 35 F.3d at 1173. To that
end, the landlord enlisted the help of a local police
officer who entered the Kernats’ home and ordered



8
them “in Wyatt Earp-like fashion” to leave. Id. at
1174. The court observed the Fourth Amendment
implications, recognizing that “a person [can have] no
desire to leave the scene of an encounter with police.”
35 F.3d at 1177–78. However, the court sidestepped
the question, calling the Kernats’ argument a “novel
theory” and affirming qualified immunity “[b]ecause
the case law had not clearly established the
unlawfulness of [the officer’s] alleged actions.” Id. at
1177–78, 1183. The court pointedly noted that it
“need not and d[id] not” decide whether the Kernats’
stated a Fourth Amendment claim. Id. at 1183.
Later, in White v. City of Markham. a case with
similar facts, the court again observed that “under [a]
factual scenario, when the plaintiffs were free to leave
and thereby terminate the encounter at any time it is
unclear whether a seizure occurred.” 310 F.3d 989,
995 (7th Cir. 2002) (concluding that officers’ conduct
was reasonable even if a seizure occurred); see also
Hamilton v. Vill. of Oak Lawn, Ill., 735 F.3d 967, 972
(7th Cir. 2013) (“[N]ot every expulsion is a
confinement, let alone a seizure.”).
The Tenth Circuit acknowledged the Sixth
Circuit’s rationale in Bennett, but decided a police
order was not a seizure for other reasons—namely
that the police gave their order over the phone. See
Silvan W. v. Briggs, 309 F. App’x 216, 225 (10th Cir.
2009) (“[C]onclud[ing] that the lack of coercion
typically inherent in a physical encounter with police
dooms the instant Fourth Amendment seizure
claims.”).



9
B. The Sixth Circuit was Correct to Hold that
a “Move On” Order can be a Seizure, and in
this Case a Seizure Occurred.
A correct reading of the Fourth Amendment and
this Court’s precedent confirms that a “move on” order
can constitute a seizure under the totality of the
circumstances.
The Second and the Eighth Circuit’s seizure
analysis incorrectly focuses on whether a reasonable
person would feel “free to leave” the encounter with
police. See Sheppard, 18 F.3d at 153; accord App. 3a
(arguing that Wilson did not seize Johnson because he
was “was neither physically restrained nor prevented
from proceeding to the sidewalk in compliance with
Wilson’s directive rather than fleeing”). Sheppard is
illustrative where the Second Circuit relied on this
Court’s decision in Mendenhall. See 18 F.3d at 153.
There, DEA agents approached Ms. Mendenhall at
the Detroit airport concourse and questioned her.
Mendenhall, 446 U.S. at 548–49. After a brief
exchange, she accompanied the agents to a private
room and was thereafter—with her consent—
searched and arrested when the officers found
narcotics. Id. at 549. This Court concluded that the
officers did not seize Mendenhall because, in view of
the totality of circumstances, the reasonable person
would have felt free to leave the encounter with police.
Id. at 554.
If Mendenhall were the end of this Court’s
precedent, the Second Circuit’s view may have been
correct. But hinging the seizure question on whether
Johnson was “free to leave” ignores both the
circumstantial nature of the Fourth Amendment
inquiry and this Court’s subsequent decisions. In



10

Bostick, police officers boarded a stopped bus on a

highway and swept it for narcotics. 501 U.S. at 431–
32. Understanding the nuances of the situation, the
Court recognized that “when the person is seated on a
bus” they will have “no desire to leave.” Id. at 435. As
such, it aptly ruled that “the degree to which a
reasonable person would feel that he or she could
leave is not an accurate measure of the coercive effect
of the encounter.” Id. at 435–36. In light of Bostick,
the Court has repeatedly reaffirmed its holding that
that a seizure occurs when a reasonable person would
not “feel free to decline the officers’ requests or
otherwise terminate the encounter.” United States v.
Drayton, 536 U.S. 194, 202 (2002) (quoting Bostick,
501 U.S. at 436). It is thus understood amongst the
courts that the seizure “has been tweaked for those
occasions when ‘a person has no desire to leave for
reasons unrelated to the police presence.‘” United
States v. Roberson, 864 F.3d 1118, 1129 (10th Cir.
2017), cert. denied, 138 S. Ct. 2649, 201 L. Ed. 2d 1053
(2018); see United States v. Smith, 332 F. Supp. 2d
277, 284 n.14 (D. Mass. 2004) (noting that “Bostick
clarified
the
Supreme
Court's
holding
in
Mendenhall”), rev’d on other grounds, 423 F.3d 25 (1st
Cir. 2005).
Often a person “has no desire to leave” a given
place. Bostick, 501 U.S. at 435. That place can be a
bus, as in Bostick, id., a public street, Bennett, 410
F.3d at 834, a retail store, Joseph v. Dillard’s, Inc., No.
CV-08-1478 PHXNVW, 2009 WL 5185393, at *6–7 (D.
Ariz. Dec. 24, 2009), a shopping mall, Jones v.
Ashford, No. CV TDC-14-3639, 2017 WL 221783, at *4
(D. Md. Jan. 18, 2017), aff’d, 691 F. App’x 113 (4th Cir.
2017), in one’s home, Kernats, 35 F.3d at 1177–78, in
a courthouse, Sheppard, 18 F.3d at 153, at a public



11
library, Tajalle v. City of Seattle, No. C07-1509Z, 2008
WL 630061, at *4 (W.D. Wash. Mar. 7, 2008), or in a
school, Muhammad v. Chicago Bd. of Educ., No. 94 C
522, 1995 WL 89013, at *2 (N.D. Ill. Feb. 24, 1995). It
thus makes sense that when a person “has no desire
to leave” a place, “the degree to which a reasonable
person would feel that he or she could leave is not an
accurate measure of the coercive effect of the
encounter.” Bostick, 501 U.S. at 435–36. The Sixth
Circuit’s position is the correct one because it draws
on Bostick’s guidance and asked the right question:
“whe[ther] a reasonable person would not feel free to
remain somewhere, by virtue of some official action.”
Bennett, 410 F.3d at 834 (emphasis in original).
As with all other Fourth Amendment questions,
this Court examines the totality of circumstances to
assess whether a person felt free to refuse an officer.
Kaupp v. Texas, 538 U.S. 626, 630 (2003). In
particular, the Court considers “the threatening
presence of several officers, the display of a weapon by
an officer, some physical touching of the person of the
citizen, or the use of language or tone of voice
indicating that compliance with the officer’s request
might be compelled.” Id. (quoting Mendenhall, 446
U.S. at 554) (noting these are “[e]xamples of
circumstances that might indicate a seizure”). Here,
Wilson displayed plain hostility with his “language
[and] tone of voice,” see Mendenhall, 446 U.S. at 554,
when he told Johnson and Brown to “[g]et the f*ck on
the sidewalk.” App. 2a. Although he was one officer,
his immediate reversal of his car and obstruction of
the two men’s paths bolstered his threatening
presence. See App. 35a. Wilson further flaunted his
authority when he pulled a gun on Johnson and
Brown and fired it in close proximity to both. Id.



12
Under these circumstances, no reasonable person
would believe they could refuse Wilson’s command to
“[g]et the f*ck on the sidewalk” and Johnson was
therefore seized.
There is no doubt that “[t]here are innumerable
reasons why it may be important for a constable to tell
a pedestrian to ‘move on.’” Morales, 527 U.S. at 87
(Scalia, J., dissenting); see Henderson, “Move on”
Orders as Fourth Amendment Seizures, 2008 B.Y.U.
L. Rev. at 43 (providing examples such as “directing
traffic around an accident or other disturbance,
protecting a public figure, separating angry and
volatile persons, emptying a building subject to a
terroristic threat or other danger, and preserving a
crime scene”). Properly finding a “move on” order a
seizure with the appropriate facts does not vitiate that
necessary power. Instead, this will—as it should—
require courts to determine if, under Bostick, a “move
on” order is a seizure and then “evaluat[e] the
reasonableness” of those orders under the Fourth
Amendment. Kernats, 35 F.3d at 1185 (Crabb, J.,
dissenting); see Mora v. The City of Gaithersburg,
MD, 519 F.3d 216, 222 (4th Cir. 2008) (explaining that
the Fourth Amendment “protect[s] by insisting on
judicial oversight, not by pressing inflexible rules”).
II. THIS CASE PRESENTS A QUESTION OF
EXCEPTIONAL IMPORTANCE
The case presents an important question
concerning citizens’ Fourth Amendment rights: does
a police officer seize a citizen when the officer takes
intimidating actions and orders that citizen to leave a
given place?
This Court has never answered that question
directly. It acknowledged the issue in Morales where



13
three justices recognized that “an individual’s decision
to remain in a public place of his choice is as much a
part of his liberty as the freedom of movement.” 527
U.S. at 53–54 (1999) (opinion by Stevens, J. joined by
Souter and Ginsburg, J.J.). They went on to explain
“that an individual’s decision to remain in a public
place of his choice is as much a part of his liberty” as
the “right to move ‘to whatsoever place one’s own
inclination may direct.’” Id. (quoting 1 W. Blackstone,
Commentaries on the Laws of England 130 (1765)); id.
(“We have expressly identified this ‘right to remove
from one place to another’ . . . ‘an attribute of personal
liberty” protected by the Constitution.’”) (quoting
Williams v. Fears, 179 U.S. 270, 274 (1900)). Indeed,
as the Court has observed, “[p]ersons ‘wandering or
strolling’ from place to place have been extolled by
Walt Whitman and Vachel Lindsay.” Papachristou v.
City of Jacksonville, 405 U.S. 156, 164 (1972)
Although the Court touched this issue, it did not
squarely answer it. It is imperative that the Court to
do so in order to avoid further confusion or abuse of
authority.
Each year, many millions of people
encounter and interact with the police. See Elizabeth
Davis, et al., Contacts Between Police and the Public,
2015, U.S. Department of Justice, Bureau of Justice
Statistics, Oct. 2018, at 2.1 (finding that over 53
million people over the age of 16 interacted with police
in 2015). Of that number, police initiated the
encounter in a public place approximately 2.5 million
times, id. at 4—police are certainly telling millions of
citizens each year to leave places and “move on.”
Given the plethora of frequent contact between
citizens and police, and the absence of precedent on
1 available at https://www.bjs.gov/content/pub/pdf/cpp15.pdf.



14
the matter from this court, the issue of whether a
move on order constitutes a seizure continually
reoccurs. See, e.g., App. 9a; O’Boyle v. Thrasher, 638
F. App’x 873, 878 (11th Cir. 2016); Salmon, 802 F.3d
at 253; Silvan, 309 F. App’x at 225; Bennett, 410 F.3d
at 834; United States v. Schettler, 32 F. App’x 14, 15
(3d Cir. 2002); Kernats, 35 F.3d at 1177–78; Dinan v.
Multnomah Cty., No. 3:12-CV-00615-PK, 2013 WL
324059, at *5–6 (D. Or. Jan. 28, 2013); Tajalle, 2008
WL 630061, at *4.
As there is no guidance on whether police seize
people with move on orders, different courts resolve
this recurring question in disparate ways. The people
of Tennessee, Ohio, Michigan and Kentucky can be
ruled seized—and therefore seek redress—for move
on orders. See Bennett, 410 F.3d at 834 (ruling
someone seized “when a reasonable person would not
feel free to remain somewhere”). The residents of
New York, Connecticut and Vermont are not so
fortunate. See Salmon, 802 F.3d at 253 (deciding that
a person “has not been seized [if] the person remains
free to go anywhere else that he wishes”).
As noted, “[t]he Seventh Circuit has had several
opportunities to decide whether a situation like this
rises to the level of a Fourth Amendment seizure” but
has not done so. Hebert, 2009 WL 3010510, at *5. As
such, the people of Illinois, Indiana and Wisconsin
also suffer from uncertain rights, although the
confusion has allowed some Seventh Circuit courts to
believe orders to leave a place can be seizures. See,
e.g., id. at *5 (“I find it hard to believe that forcibly
removing someone from his home is not a Fourth
Amendment seizure.”); Beverlin v. Grimm, No. 94 C
2834, 1995 WL 470274, at *3 n.1 (N.D. Ill. Aug. 4,
1995) (“[W]e think the Terry rationale is applicable to



15
unlawful interference with freedom of movement
whether it be exerted by preventing a person from
leaving or by forcing her to leave.”).
Similar to the Seventh circuit, “the Ninth Circuit
ha[s] not addressed the issue” either, Dinan, 2013 WL
324059, at *6; see Joseph v. Dillard’s, Inc., No. CV-081478 PHXNVW, 2009 WL 5185393, at *7 (D. Ariz.
Dec. 24, 2009) (concluding that “it is unclear whether
an order to leave constitutes a seizure as a matter of
law”), and its courts reached differing outcomes. In
Dinan, sheriff’s deputies directed an agitated man to
leave a courthouse and not return that day. 2013 WL
324059, at *2, 6. The Oregon court was “persuaded by
the Sixth Circuit’s approach” that move on orders can
be seizures. Id. at 6 (preferring the Sixth Circuit
“particularly because the Second Circuit failed to
appreciate that the Supreme Court refined its Fourth
Amendment seizure jurisprudence in Bostick” and its
progeny).
The Western District of Washington
reached a different decision in Tajalle. There, two
security guards ordered the plaintiff to leave a public
library and one then walked him to the exit. Tajalle,
2008 WL 630061, at *4. The court ruled that the
plaintiff did not “allege[] any facts to support a finding
that he was seized within the meaning of the Fourth
Amendment.” Id.
Other courts are similarly confounded. The Fourth
Circuit offers little more clarity than the Ninth. In
the District of Maryland, a police officer did not seize
a man when ordering him to leave a shopping mall.
See Jones, 2017 WL 221783, at *2. The court did not
rule out that such an order could be a seizure but
reasoned that this encounter was not because the
defendant “was the only law enforcement officer
present, he displayed no weapon, and he did not



16
physically touch” the plaintiff. Id. at 4. The District
of South Carolina also implied that an order to leave
one’s property on threat of arrest could be a seizure.
Goodwater v. Cty. of Charleston, No. 2:17-CV-00998,
2018 WL 827132, at *5 (D.S.C. Feb. 12, 2018) (calling
the matter a “close question” but avoiding the issue
upon concluding that the purported seizure would be
“justified”). Finally, as previously noted, the Tenth
Circuit seemingly approved the Sixth Circuit’s
rationale in Bennett but avoided adopting its holding
by resolving the case on other grounds. See Silvan,
309 F. App’x at 225 (noting that a police order over the
phone lacks the coercive effect of a physical
encounter). In short, people’s rights hinge not on clear
dictates of the Fourth Amendment, but on vagaries of
geography and the whims of individual judges
If the “innumerable reasons why” an officer might
order a person to move from one place to another
Morales, 527 U.S. at 87, were all legitimate, such as
clearing crime scenes and steering people from
dangerous situations, see Henderson, “Move on”
Orders as Fourth Amendment Seizures, 2008 B.Y.U.
L. Rev. at 43, perhaps “move on” orders would warrant
scant attention. But from “Ferguson, Baltimore, New
York, and Charleston”—and indeed, all over the
country—“the problem of police misconduct has been
surfacing . . . with troubling regularity.” John Felipe
Acevedo, Restoring Community Dignity Following
Police Misconduct, 59 How. L.J. 621, 622 (2016). The
issue of “over policing” is a pressing public concern, as
“[a]cademics are not the only ones challenging broken
windows’ efficacy.” Katherine E. Kinsey, It Takes A
Class: An Alternative Model of Public Defense, 93 Tex.
L. Rev. 219, 224 (2014) (noting that the New York
Times’ editorial board claims such tactics have



17
“pointlessly burdened thousands of young people,
most of them Black and Hispanic, with criminal
records”). This Court can and should decide whether
people can seek redress for such issues when ordered
to leave a place, particularly in this time of heightened
concern over police activities. See Eric L. Adams,
More Scrutiny, Better Policing, N.Y. Times, Nov. 14,
2015 at A23 (“Police departments have no choice but
to embrace the notion not only that scrutiny is
inevitable, but also that it will lead to better
policing.”).
III.THIS CASE IS AN EXCELLENT VEHICLE TO
RESOLVE THE QUESTION PRESENTED.
This case presents a crucial certiorari-worthy
question to the Court and is an excellent vehicle to
resolve it.
First, this case squarely presents the issue of
whether a seizure occurs when the police do not
restrict a person to a place, but rather order a person
from it. Wilson ordered Johnson and Brown to “[g]et
the f*ck on the sidewalk” and blocked their path with
his police cruiser. App. 2a. In theory, they could have
complied and “remain[ed] free to go anywhere else”
that they wished. See Salmon, 802 F.3d at 253 (citing
Sheppard, 18 F.3d at 153). Even so, they were not
“free to remain” on their chosen path “by virtue of”
Wilson’s actions. Bennett, 410 F.3d at 834 (emphasis
in original). With this case, the Court can decide if
only confinement can constitute a seizure or if people
are seized by “move on” orders when they are “not free
to decline the officers’ requests or otherwise terminate
the encounter.” Id. (quoting Bostick, 501 U.S. at 439).
Second, if the Court rules a “move on” order can be
a seizure, it can clarify what police behavior will



18
amount to a seizure. The Court frequently notes that
“not all personal intercourse between policemen and
citizens involves ‘seizures’ of persons.” Bostick, 501
U.S. at 434 (quoting Terry v. Ohio, 392 U.S. 1, 19, n.
16 (1968)). And similarly, there are many reasons
why an officer could order someone to “move on” from
one place to another. See Salmon, 802 F.3d at 253
(such as “crime scenes, accident sites, dangerous
construction venues, anticipated flood or fire paths,
parade routes, areas of public disorder, etc.”).
Wilson’s directive to Johnson and Brown was
undoubtably a “move on” order and the Court can
consider whether that limitation on their freedom
alone was a seizure. But Wilson’s actions also allow
the Court to decide what further show of police
authority is necessary to seize someone. Wilson did
much more than issue instructions to Johnson and
Brown. In fact, he barked a stark profanity laced
command, blocked their path with his motor vehicle,
opened the vehicle door striking Brown, drew his gun
and shot at the two men, killing Brown. App. 2a. The
Court can assess, given these facts, whether a
reasonable person would “feel free to decline” Wilson’s
“request[],”
Drayton, 536 U.S. at 202 (quoting
Bostick, 501 U.S. at 436) (emphasis added), to “[g]et
the f*ck on the sidewalk,” App. 2a.
Finally, there are no preliminary disputed issues
that would prevent a resolution of the question
presented, as the seizure issue was squarely decided
by the en banc panel below.



19
CONCLUSION
For the foregoing reasons, the petition should be
granted, the judgment below should be reversed, and
the case should be remanded for further proceedings.
Respectfully submitted,
PATRICIA E. ROBERTS
WILLIAM & MARY LAW
SCHOOL APPELLATE AND
SUPREME COURT CLINIC
P.O. Box 8795
Williamsburg, VA 23187
Telephone: 757-221-3821

*Counsel of Record

TILLMAN J. BRECKENRIDGE*
AARON J. GOLD
PIERCE BAINBRIDGE BECK
PRICE & HECHT LLP
601 Pennsylvania Ave., NW,
South Tower, Suite 700
Washington, DC 20004
Telephone: 202-759-6925
tjb@piercebainbridge.com
Counsel for Petitioner



APPENDICES

1a
APPENDIX A
Case No. 16-1697
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
DORIAN JOHNSON,
Plaintiff-Appellee
FILED
June 17, 2019

v.
CITY OF FERGUSON et al.,
Defendants-Appellees
OPINION

BEFORE: SMITH, Chief Judge, WOLLMAN, LOKE,
MURPHY,1 MELLOY, COLLOTON, GRUENDER,
SHEPHERD, KELLY, and ERICKSON, Circuit
Judges, En Banc.2
WOLLMAN, Circuit Judge. In Johnson v. City of
Ferguson, 864 F.3d 866 (8th Cir. 2017), a panel of our
court affirmed the district court’s ruling that Dorian
Johnson had alleged sufficient facts to state 42 U.S.C.
§ 1983 claims of unlawful seizure and the use of
excessive force against former Ferguson Police Officer
1 The Honorable Diana E. Murphy participated in oral argu-

ment, but died on May 16, 2018.
2 Judge Grasz, Judge Stras, and Judge Kobes did not participate

in the consideration or decision of this matter.

2a
Darren Wilson, as well as a claim of supervisory
liability against former Ferguson Police Chief Thomas
Jackson, and thus denied the defendants’ motion for
dismissal based upon qualified immunity.
We
granted their petition for rehearing en banc and
vacated the panel’s opinion. We now reverse the
district court’s order and remand with directions to
dismiss the federal claims.
As alleged in Johnson’s complaint, he and Michael
Brown, Jr. were “peacefully and lawfully” walking
down Canfield Drive in Ferguson, Missouri, at
approximately 12:00 p.m. on August 9, 2014, when
they were approached by Officer Darren Wilson in his
marked police vehicle. As he approached the pair,
Wilson slowed his vehicle and ordered them to “Get
the f*ck on the sidewalk.” Wilson continued to drive
his vehicle several more yards, then abruptly put the
vehicle in reverse and parked it at an angle so as to
block the pair’s path. After stopping his vehicle just
inches from Brown, Wilson forcefully opened his door,
striking Brown. Wilson reached through his window,
grabbed Brown, and threatened to shoot his weapon.
As Brown struggled to break free, Wilson discharged
his weapon twice, striking Brown in the arm. Both
Brown and Johnson ran away from Wilson, who at no
time ordered either of them to “stop” or “freeze,” but
rather fired his weapon at the two men, with several
of the shots striking and killing Brown.
We agree with the panel opinion’s identification of
the governing issue in this case: “The crux of the
motion to dismiss and this resulting appeal centers on
the issue of whether there was a seizure. Johnson
concedes that if there was no seizure virtually all of
his claims fall away.” Johnson, 864 F.3d at 872. We
disagree with the panel’s ruling that a seizure

3a
occurred, and thus we hold that the district court
erred in not granting the defendants’ motion to
dismiss based upon their claim of qualified immunity.
Whatever one might say about Wilson’s expletiveexpressed directive that Brown and Johnson move
from the street to the sidewalk, Johnson’s complaint
concedes that neither he nor Brown was ordered to
stop and to remain in place. Johnson’s decision to
remain by Brown’s side during Brown’s altercation
with Wilson rather than complying with Wilson’s
lawful command to return to the sidewalk was that of
his own choosing. That he was able to leave the scene
following the discharge of Wilson’s weapon gives the
lie to his argument that the placement of Wilson’s
vehicle prevented him from doing so. As was the case
in United States v. Hayden, 759 F.3d 842, 847 (8th
Cir. 2014), Wilson’s police vehicle constituted no
barrier to Johnson’s ability to cross to the sidewalk.
Any physical or weapon-related contact by Wilson was
directed towards Brown alone in the first instance. In
a word, then, because Johnson himself was neither
physically restrained nor prevented from proceeding
to the sidewalk in compliance with Wilson’s directive
rather than fleeing as he did, the question before us is
alike to that presented in California v. Hodari D., 499
U.S. 621, 626 (1991):
The narrow question before us is whether, with
respect to a show of authority as with respect to
application of physical force, a seizure occurs
even though the subject does not yield. We hold
that it does not.
Likewise, what the Court wrote in Brendlin v.
California, 551 U.S. 249, 254 (2007), is equally
applicable in this case: “[T]here is no seizure without

4a
actual submission.” Because there was no verbal or
physical impediment to Johnson’s freedom of
movement, there was no submission to authority on
his part even in a metaphysical sense of the meaning
of that word. Accordingly, in the absence of any
intentional acquisition of physical control terminating
Johnson’s freedom of movement through means
intentionally applied, as occurred in both Brower v.
County of Inyo, 489 U.S. 593, 596–99 (1989), and in
Tennessee v. Garner, 471 U.S. 1, 4, 7 (1985), we
conclude that no seizure occurred in this case. See
also United States v. Stover, 808 F.3d 991, 995 (4th
Cir. 2015); United States v. Salazar, 609 F.3d 1059,
1065–66 (10th Cir. 2010); United States v. Waterman,
569 F.3d 144, 145–46 (3rd Cir. 2009); United States v.
Baldwin, 496 F.3d 215, 218–19 (2d Cir. 2007); United
States v. Letsinger, 93 F.3d 140, 143–45 (4th Cir.
1996); United States v. Hernandez, 27 F.3d 1403,
1406–07 (9th Cir. 1994); United States v. Washington,
12 F.3d 1128, 1132 (D.C. Cir. 1994).
We turn then to the claim of supervisory liability
against Police Chief Jackson. In addressing this
issue, the panel opinion recognized that “Section 1983
liability cannot attach to a supervisor merely because
a subordinate violated someone’s constitutional
rights.” Johnson, 864 F.3d at 877 (quoting Otey v.
Marshall, 121 F.3d 1150, 1155 (8th Cir. 1997)). As we
held in Moore v. City of Desloge, 647 F.3d 841, 849
(8th Cir. 2011), “This circuit has consistently
recognized a general rule that, in order for municipal
liability to attach, individual liability first must be
found on an underlying substantive claim.” (quoting
McCoy v. City of Monticello, 411 F.3d 920, 922 (8th
Cir. 2005)). Further, “to maintain an action for
training or supervisory liability, a plaintiff must show

5a
the failure to train or supervise caused the injury.
Because Moore failed to establish Officer Malady
violated Moore’s constitutional rights, Moore cannot
maintain this action against either Chief Bullock or
the city.” Id. (internal citation omitted). In light of
our holding that no seizure and thus no constitutional
violation occurred in this case, Johnson’s claim of
supervisory
liability
against
Chief
Jackson
necessarily fails, as perforce does any claim of
municipal liability against the City of Ferguson.
Accord Mahn v. Jefferson Cty., 891 F.3d 1093, 1099–
1100 (8th Cir. 2018).
The district court’s order is reversed and the case
is remanded with directions to dismiss the federal
claims.
***
MELLOY, Circuit Judge, with whom SMITH,
Chief Judge, KELLY and ERICKSON, Circuit Judges,
join, dissenting. At this stage of the proceedings the
majority has identified a single issue that must be
addressed: Was there a Fourth Amendment seizure?
On appeal, Officer Wilson argues that, under the
Fourth Amendment, his actions neither qualified as a
show of authority to stop nor did Johnson actually
stop. The Court today holds that the facts alleged in
Johnson’s complaint—viewed in the light most
favorable to Johnson—cannot establish a Fourth
Amendment seizure. I respectfully disagree and
therefore dissent.
I.

Fourth Amendment Violation

In his § 1983 claim, Johnson asserts that Officer
Wilson violated the Fourth Amendment by
unreasonably seizing Johnson.
The Fourth
Amendment prohibits “unreasonable . . . seizures” of

6a
persons. U.S. Const. amend. IV (“The right of the
people to be secure in their persons . . . against
unreasonable . . . seizures, shall not be violated . . . .”);
accord California v. Hodari D., 499 U.S. 621, 624
(1991). Thus, to show a Fourth Amendment violation,
a claimant must show both that he was seized and
that the seizure was unreasonable.
A. Seizure
“A person is seized by the police and thus entitled
to challenge the government’s action under the Fourth
Amendment when the officer, ‘by means of physical
force or show of authority,’ terminates or restrains his
freedom of movement through means intentionally
applied.” Brendlin v. California, 551 U.S. 249, 254
(2007) (citations and emphasis omitted, emphasis
added). In claiming a seizure through a show of
authority (rather than through physical force), the
claimant must demonstrate both (1) a show of
authority and (2) actual submission to that show of
authority. Id.
1. Show of Authority
To determine whether there was a show of
authority, courts apply an objective test: “not whether
the citizen perceived that he was being ordered to
restrict his movement, but whether the officer’s words
and actions would have conveyed that to a reasonable
person.” Hodari D., 499 U.S. at 628; accord Florida v.
Bostick, 501 U.S. 429, 437 (1991) (framing the
analysis as whether the officer’s conduct would “have
communicated to a reasonable person that he was not
at liberty to ignore the police presence and go about
his business” (citation omitted)). This analysis is
based on “the totality of circumstances surrounding
the incident.” United States v. Johnson, 326 F.3d

7a
1018, 1021 (8th Cir. 2003). Factors relevant to the
analysis include “the presence of several officers, a
display of a weapon by an officer, physical touching of
the person, or the ‘use of language or tone of voice
indicating that compliance with the officer’s request
might be compelled.’” United States v. Flores–
Sandoval, 474 F.3d 1142, 1145 (8th Cir. 2007)
(quoting United States v. Hathcock, 103 F.3d 715, 719
(8th Cir. 1997)). Although this is an objective,
reasonable-person standard (and although Fourth
Amendment cases are necessarily fact specific), this
Court has frequently set a high bar for police conduct
to qualify as a Fourth Amendment show of authority.
See, e.g., United States v. Cook, 842 F.3d 597, 601 (8th
Cir. 2016) (holding that the defendant was not seized
when police officers parked their vehicle behind
defendant’s parked car, activated the patrol car’s “wig
wag” lights, and approached the defendant’s vehicle);
United States v. Hayden, 759 F.3d 842, 846 (8th Cir.
2014) (holding that the defendant was not seized
when a police officer pulled his vehicle alongside the
defendant, shined a flashlight on him, and yelled
“Police!”).
Here, I believe that Officer Wilson made a show of
authority communicating that Johnson “was not at
liberty to ignore the police presence and go about his
business.” Bostick, 501 U.S. at 437. As stated above,
the only facts relevant at this procedural posture are
those alleged in the complaint. And the Court must
accept those facts as true and view them in the light
most favorable to Johnson. To recap, Johnson’s
complaint alleged the following facts relevant to this
issue:
x

As Johnson and Brown walked
peacefully and “lawfully” down the road,

8a
Officer Wilson, operating a marked
police vehicle, approached Johnson and
Brown, slowed his vehicle to a stop, and
ordered them to “Get the f*ck on the
sidewalk.”
x

Officer Wilson continued to drive his
vehicle several yards, then abruptly put
his vehicle into reverse and parked his
vehicle at an angle so as to block the
paths of Johnson and Brown.

x

Officer Wilson stopped his vehicle just
inches from Brown and forcefully opened
his door, striking Brown. Officer Wilson
then reached through his window and
grabbed Brown, who was closer to Officer
Wilson than Johnson. Officer Wilson
thereafter threatened to shoot his
weapon. As Brown struggled to break
free, Officer Wilson discharged his
weapon twice, striking Brown in the
arm. Surprised by Officer Wilson’s use
of “excessive” force and fearing for his
life, Plaintiff Johnson ran away from
Officer Wilson simultaneously with
Brown.

By crudely ordering Johnson to move and then
abruptly reversing his vehicle and stopping it inches
away and directly in Johnson’s path, Officer Wilson
communicated an intent to use a roadblock to stop
Johnson’s movement.
Despite Defendants’ (and
amicus curiae’s) argument that the roadblock did not
foreclose all of Johnson’s avenues of travel, a
reasonable person would understand the roadblock’s
purpose was to serve as a “physical obstacle”

9a
conveying an order to stop—not an order to go around
the vehicle and continue on one’s way. Brower v. Cty.
of Inyo, 489 U.S. 593, 599 (1989) (“We think it enough
for a seizure that a person be stopped by the very
instrumentality set in motion or put in place in order
to achieve that result. It was enough here, therefore,
that, according to the allegations of the complaint,
Brower was meant to be stopped by the physical
obstacle of the roadblock—and that he was so
stopped.”). Officer Wilson’s actions thus would convey
to the “reasonable person that he was not at liberty to
ignore the police presence and go about his business.”
Bostick, 501 U.S. at 437.
On this issue, amicus curiae The National Police
Association argues that Officer Wilson’s order was
nothing more than an order “simply for two
pedestrians to get off the street and use the sidewalk”
and that “[h]e did not order anything other than
compliance with the law.” Amicus Br. 8. This type of
order is commonly referred to as a “move on” order
and is meant to convey the message that a person is
free to go anywhere else but cannot remain where he
is. The parties have not cited, nor am I aware of, any
Eighth Circuit precedent addressing whether moveon orders qualify as seizures under the Fourth
Amendment. Other circuits have split on the issue,
with the analysis frequently (but not always) turning
on whether there was physical contact. See, e.g.,
Salmon v. Blesser, 802 F.3d 249, 251 (2d Cir. 2015)
(holding that the plaintiff, who was physically
removed from a courthouse—after an officer ordered
him to leave, grabbed his shirt collar, twisted his arm
behind his back, and shoved him toward the door—
pleaded sufficient facts to allege a Fourth Amendment
violation); id. at 253 n.4 (stating that “nowhere in [any

10a
case] has the Supreme Court suggested that police
orders directing persons to move from particular
public areas while leaving them free to go anywhere
else they wish effect Fourth Amendment seizures of
the persons”); Bennett v. City of Eastpointe, 410 F.3d
810, 834 (6th Cir. 2005) (holding that a “person is
seized not only when a reasonable person would not
feel free to leave an encounter with police, but also
when a reasonable person would not feel free to
remain somewhere, by virtue of some official action”);
Sheppard v. Beerman, 18 F.3d 147, 153 (2d Cir. 1994)
(holding that a fired law clerk—ordered to leave a
courthouse, escorted off the premises, and free to go
anywhere else, but who was not physically removed—
was not seized for purposes of the Fourth
Amendment).
The majority essentially agrees with this
argument and asserts there was no seizure because
Johnson could merely have complied with the police
officer’s directive and moved to the sidewalk. Were
the facts as simple as the majority and amicus curiae
present, then this would be a compelling argument as
to why there was no Fourth Amendment seizure. Had
Officer Wilson blocked Johnson’s direction of travel
but then permitted him to proceed to the sidewalk and
continue on his way, a reasonable person likely would
believe he was “at liberty to ignore the police presence
and go about his business.” Bostick, 501 U.S. at 437.
But the facts are not as simple as amicus curiae
contends. Officer Wilson’s initial command to get on
the sidewalk merely began the encounter that then
continued. As alleged, Officer Wilson next escalated
the encounter by abruptly putting his vehicle into
reverse and parking his car at an angle blocking
Johnson’s path and within inches of Brown and

11a
Johnson. Officer Wilson then fought with Brown and
threatened to fire his firearm. These events, viewed
in a light most favorable to Johnson, would
communicate to the reasonable person that Johnson
“was not at liberty to ignore the police presence and
go about his business.” Bostick, 501 U.S. at 437.
Officer Wilson’s abrupt stopping of his vehicle inches
away from Johnson, thereby creating a roadblock,
coupled with the threat of using his service weapon,
was a show of force communicating to a reasonable
person the necessity to stop and not continue on one’s
way. Officer Wilson’s actions were a “show of
authority . . . at least partly directed at [Johnson], and
[conveying] that he was thus not free to ignore the
police presence and go about his business.” Brendlin,
551 U.S. at 261.
2. Submission
Assuming there is a show of authority, Johnson
still must demonstrate that he submitted to that show
of authority. See Hodari D., 499 U.S. at 626. Whereas
fleeing or refusing to comply with a show of authority
does not qualify as submission to authority, id.,
stopping one’s movement often qualifies as
submission, see Brendlin, 551 U.S. at 255–56
(collecting cases). But temporarily stopping is not
always sufficient to constitute a submission to
authority. See United States v. Baldwin, 496 F.3d
215, 219 (2d Cir. 2007) (holding that, after a police
vehicle with activated lights and sirens followed the
defendant’s vehicle, the defendant’s “momentary stop
did not constitute submission to police authority”).
This analysis also depends, of course, on the facts of
the case.

12a
Here, I believe that Johnson submitted to Officer
Wilson’s show of authority. Johnson stopped walking
when Officer Wilson placed his vehicle directly in
Johnson’s path. Based on the alleged facts, Johnson’s
stop was not a temporary, reactionary pause caused
by the roadblock placed in his path. Johnson did not
recommence walking and go around the vehicle.
Instead, Johnson remained throughout the time that
Officer Wilson reached through his window and
grabbed Brown, threatened to shoot his weapon,
wrestled with Brown who struggled to break free, and
then twice fired his weapon.
The majority seems to imply that Officer Wilson’s
use of a weapon was directed at Brown only and that,
while Brown may have been seized, Johnson was not.
I do not believe the complaint can be parsed that
finely. Both Brown and Johnson were walking
together, Officer Wilson pulled his vehicle in front of
both, both eventually fled, and Officer Wilson fired his
weapon in the direction of both, striking and killing
Brown but missing Johnson. In short, I do not believe
that from the perspective of a reasonable person
encountering Officer Wilson, it can be reasonably said
Officer Wilson intended to seize Brown but not
Johnson. If one of the two were seized, both were
seized.
One difficulty surrounding this issue is whether
Johnson’s “submission to [the] show of governmental
authority takes the form of passive acquiescence” that
rises to the level of a submission to authority.
Brendlin, 551 U.S. at 255. The Supreme Court in
Brendlin held that “what may amount to submission
depends on what a person was doing before the show
of authority: a fleeing man is not seized until he is
physically overpowered, but one sitting in a chair may

13a
submit to authority by not getting up to run away.”
Id. at 262. There, the Court considered “whether a
traffic stop subjects a passenger,” who merely
remained in the car throughout the traffic stop, “to
Fourth Amendment seizure.” Id. at 254. The Court
held that the passenger was seized. Id. at 263. In so
holding, the Court adopted a test for determining
whether a claimant’s passive acquiescence to a show
of authority qualifies as submission to that show of
authority: “We resolve this question by asking
whether a reasonable person in [the claimant’s]
position . . . would have believed himself free to
‘terminate the encounter’ between the police and
himself.” Id. at 256–57 (quoting Bostick, 501 U.S. at
436).
Johnson’s stop was not passive acquiescence to a
show of authority. For one, Johnson did take some
action to actively acquiesce to Officer Wilson’s show of
authority: Johnson stopped walking. This is more
than the passive acquiescence in Brendlin where the
defendant, a passenger, merely remained in his seat
as the driver pulled over the vehicle. See 551 U.S. at
252, 263. Also, even assuming Johnson passively
acquiesced to the show of authority by merely
remaining throughout the encounter, “a reasonable
person in [Johnson’s] position . . . would [not] have
believed himself free to ‘terminate the encounter’
between the police and himself,” id. at 256–57
(quoting Bostick, 501 U.S. at 436), for the reasons
discussed above.
B. Objective Reasonableness
Johnson asserts that the alleged seizure was
unreasonable and that Officer Wilson used excessive
force, in violation of the Fourth Amendment. As

14a
recognized in the panel opinion, Defendants do not
appear to present any argument that, assuming there
was a seizure, the seizure and use of deadly force were
nevertheless reasonable. Accordingly, Defendants
have abandoned any argument on this issue. See
Glasgow v. Nebraska, 819 F.3d 436, 440 (8th Cir.
2016) (holding that claims not mentioned in an appeal
brief are forfeited).
I would affirm the district court’s denial of the
appellants’ motion to dismiss.

15a
APPENDIX B
Case No. 16-1697
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
DORIAN JOHNSON,
Plaintiff-Appellee
v.
CITY OF FERGUSON et al.,
Defendants-Appellees

FILED
July 25, 2017
CORRECTED
July 31, 2017

OPINION
BEFORE: WOLLMAN, MURPHY, and MELLOY,
Circuit Judges.
MELLOY, Circuit Judge. Dorian Johnson sued
Officer Darren Wilson, Police Chief Thomas Jackson,
and the City of Ferguson, Missouri, for constitutional
violations resulting from an encounter between
Officer Wilson and Johnson. The district court1
denied Defendants’ motion to dismiss based on
qualified immunity. Defendants appeal, and we
affirm.
I.
Because this matter comes before us as an appeal
from the denial of a motion to dismiss, we set forth the
facts as alleged in the complaint. Hager v. Ark. Dep’t
1 The Honorable Audrey G. Fleissig, United States District

Judge for the Eastern District of Missouri.

16a

of Health, 735 F.3d 1009, 1013 (8th Cir. 2013). On
August 9, 2014, Johnson and Michael Brown, Jr.,
were walking down Canfield Drive in Ferguson,
Missouri. Officer Wilson approached both men in his
police car and told them to “Get the f*ck on the
sidewalk.” Officer Wilson drove past the two men and
then reversed his car, parking so as to block Johnson
and Brown’s path. Officer Wilson opened his door,
striking Brown, and then grabbed Brown and
threatened to shoot his gun. While Brown struggled
to break free, Officer Wilson discharged his gun twice,
striking Brown in the arm. At all times during this
encounter, Johnson was standing next to Brown.
After Officer Wilson shot Brown in the arm,
Brown and Johnson ran away from Officer Wilson.
Officer Wilson did not order Brown and Johnson to
“stop” or “freeze.” Rather, Officer Wilson fired his
service weapon at the two men, striking Brown
several times and killing him.
Johnson filed this cause of action pursuant to 42
U.S.C. § 1983, naming Officer Wilson, the City of
Ferguson, and Chief Jackson as defendants. Johnson
alleges that Officer Wilson’s actions constituted an
unlawful seizure and use of excessive force, in
violation of his rights under the Fourth and
Fourteenth Amendments. Further, Johnson alleges
that the City of Ferguson and Chief Jackson engaged
in policies that resulted in the violation of Johnson’s
civil rights, including failure to train and supervise
officers and condoning unconstitutional lawenforcement practices. Johnson also brought claims
under Missouri state law for assault, intentional
infliction of emotional distress, and, in the
alternative, negligent infliction of emotional distress.

17a
Defendants moved to dismiss Johnson’s complaint
for failure to state a claim. Officer Wilson and Chief
Jackson claim they are entitled to qualified immunity.
The City of Ferguson claims it cannot be liable
because Johnson failed to show that a constitutional
violation occurred. The district court denied qualified
immunity to Officer Wilson and Chief Jackson. The
district court also denied the motion to dismiss the
claims against the City of Ferguson. Defendants
appeal.
II.
A. Qualified Immunity
“[A] district court’s denial of a claim of qualified
immunity, to the extent that it turns on an issue of
law, is an appealable ‘final decision’ within the
meaning of 28 U.S.C. § 1291 notwithstanding the
absence of a final judgment.” Mitchell v. Forsyth, 472
U.S. 511, 530 (1985). Defendants challenge the
sufficiency of Johnson’s pleadings to state a claim
pursuant to § 1983. This is an issue of law over which
we have jurisdiction. See Hager, 735 F.3d at 1013.
We review the denial of a motion to dismiss on the
basis of qualified immunity de novo. Id. A complaint
must plead “enough facts to state a claim to relief that
is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). “Courts must accept a
plaintiff’s factual allegations as true but need not
accept a plaintiff’s legal conclusions.”
Retro
Television Network, Inc. v. Luken Commc’ns, LLC,
696 F.3d 766, 768–69 (8th Cir. 2012). “[D]efendants
seeking dismissal under Rule 12(b)(6) based on an
assertion of qualified immunity ‘must show that they
are entitled to qualified immunity on the face of the
complaint.’” Carter v. Huterson, 831 F.3d 1104, 1107

18a
(8th Cir. 2016) (quoting Bradford v. Huckabee, 394
F.3d 1012, 1015 (8th Cir. 2005)).
Qualified immunity shields officers from liability
when “their conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982).
“The
determination of whether an officer is entitled to
qualified immunity requires consideration of the
‘objective legal reasonableness’ of the officer’s conduct
in light of the information he possessed at the time of
the alleged violation.” Winters v. Adams, 254 F.3d
758, 766 (8th Cir. 2001) (quoting Harlow, 457 U.S. at
819). “Qualified immunity involves the following twostep inquiry: (1) whether the facts shown by the
plaintiff make out a violation of a constitutional or
statutory right, and (2) whether that right was clearly
established at the time of the defendant’s alleged
misconduct.” Mitchell v. Shearrer, 729 F.3d 1070,
1074 (8th Cir. 2013); see Pearson v. Callahan, 555
U.S. 223, 236 (2009) (holding that courts have
discretion to determine which prong to address first).
1. Constitutional Violation
a. Seizure
The crux of the motion to dismiss and this
resulting appeal centers on the issue of whether there
was a seizure. Johnson concedes that if there was no
seizure virtually all of his claims fall away.
Conversely, if there was a seizure, the Defendants
make little argument that the force used was not
unreasonable. Thus, we turn to that issue first.
The § 1983 claim against Officer Wilson alleges
that Johnson was unlawfully detained and subjected

19a
to excessive force in violation of the Fourth and
Fourteenth Amendments. The Fourth Amendment
prohibits unreasonable seizures of persons. U.S.
Const. amend. IV. Whether a person has been seized
turns on whether, “in view of the totality of
circumstances surrounding the incident, a reasonable
person would have believed he was free to leave.”
United States v. Johnson, 326 F.3d 1018, 1021 (8th
Cir. 2003). Courts consider “the presence of several
officers, a display of a weapon by an officer, physical
touching of the person, or the ‘use of language or tone
of voice indicating that compliance with the officer’s
request might be compelled.’” United States v. FloresSandoval, 474 F.3d 1142, 1145 (8th Cir. 2007)
(quoting United States v. Hathcock, 103 F.3d 715,
718–19 (8th Cir. 1997)). Further, “[a] seizure occurs
when the officer, ‘by means of physical force or show
of authority, has in some way restrained the liberty’
of a suspect.” Id. (quoting United States v. Barry, 394
F.3d 1070, 1074 (8th Cir. 2005)).
Johnson alleges he was seized when Officer Wilson
yelled at Johnson and Brown to “Get the f*ck on the
sidewalk” and then parked his police car so as to block
their path. Johnson argues that this constitutes a
show of authority. Courts apply an objective test to
determine whether there was a show of authority:
“not whether the citizen perceived that he was being
ordered to restrict his movement, but whether the
officer’s words and actions would have conveyed that
to a reasonable person.” California v. Hodari D., 499
U.S. 621, 628 (1991).
Officer Wilson argues that his actions did not
constitute a show of authority because Johnson “did
not allege he was blocked by the angle of the cruiser,
just that the path in one direction on an open road was

20a
blocked.” However, the fact that Johnson could have
walked around Officer Wilson’s car is not dispositive
as to whether there was a seizure. In Brower v.
County of Inyo, the Supreme Court stated:
We think it enough for a seizure that a person
be stopped by the very instrumentality set in
motion or put in place in order to achieve that
result. It was enough . . . that, according to the
allegations of the complaint, [the suspect] was
meant to be stopped by the physical obstacle of
the roadblock—and that he was so stopped.
489 U.S. 593, 599 (1989). The Court further stated:
“[A] Fourth Amendment seizure . . . occur[s] . . . only
when there is a governmental termination of freedom
of movement through means intentionally applied.”
Id. at 596–97. Finally, the Court stated that “a
roadblock is not just a significant show of authority to
induce a voluntary stop, but is designed to produce a
stop by physical impact if voluntary compliance does
not occur.” Id. at 598.
In this case, Johnson’s complaint alleged that
Officer Wilson stopped his car at an angle, directly in
front of Johnson and Brown, so as to block their path
after yelling at them to “Get the f*ck on the sidewalk.”
That is enough to constitute a show of authority for
Fourth Amendment purposes.
Defendants argue that, even assuming Officer
Wilson’s actions constitute a show of authority, there
was no seizure because Johnson did not submit to
Officer Wilson’s authority. To constitute a seizure,
there must be “either physical force . . . or, where that
is absent, submission to the assertion of authority.”
Hodari D., 499 U.S. at 626. Defendants claim that,
although Johnson stopped when Officer Wilson

21a
parked in front of him, Johnson did not actually
submit to Officer Wilson’s authority before fleeing.
Defendants characterize Johnson’s stopping as
“inaction” while Officer Wilson and Brown were
involved in an altercation.
The fact that Johnson was not involved in the
altercation does not affect our analysis of whether
Johnson was seized. First, it is enough that Johnson
actually stopped when Officer Wilson blocked his
path. See Brower, 489 U.S. at 599. While Johnson
was not involved in the altercation, Johnson’s
situation is similar to that of a passenger in a car that
has been pulled over. In Brendlin v. California, the
Supreme Court held that a passenger in a car that has
been pulled over is seized for Fourth Amendment
purposes. 551 U.S. 249, 256–57 (2007). The Court
explained, “any reasonable passenger would have
understood the police officers to be exercising control
to the point that no one in the car was free to depart
without police permission.” Id. at 257. The Court
reasoned that “[a] traffic stop necessarily curtails the
travel a passenger has chosen just as much as it halts
the driver.” Id. Finally, the Court stated that “the
issue is whether a reasonable passenger would have
perceived that the show of authority was at least
partly directed at him, and that he was thus not free
to ignore the police presence and go about his
business.” Id. at 261.
Just as a passenger would understand that no one
in the car is free to leave during a traffic stop, one of
two pedestrians stopped by a single police roadblock
would understand that he was not free to leave, even
if the officer only directly engaged with the other
pedestrian. Officer Wilson’s show of authority did not
single out Brown as he walked alongside Johnson.

22a
Further, as the Court noted, “what may amount to
submission depends on what a person was doing
before the show of authority: a fleeing man is not
seized until he is physically overpowered, but one
sitting in a chair may submit to authority by not
getting up to run away.” Id. at 262. While Johnson
did not physically engage with Officer Wilson, he did
stop walking when Officer Wilson parked in Johnson’s
path.
Defendants contend that Johnson did not submit
to Officer Wilson’s authority because he fled.
Defendants argue that, though Johnson stopped, it
was only momentary and thus “does not amount to a
constitutionally actionable submission under the
Fourth Amendment.” To support their argument,
Defendants rely on a Second Circuit case, United
States v. Baldwin, 496 F.3d 215 (2d Cir. 2007). In
Baldwin, the court held that there was no seizure
when police pulled a car over but the driver refused to
comply with the officers’ commands and sped off when
officers approached the car. Id. at 217–18. The court
explained that its holding was “not predicated on the
brevity of Baldwin’s stop, but on the fact that the stop
itself did not constitute submission. In other words, it
is the nature of the interaction, and not its length,
that matters.” Id. at 219.
In this case, the nature of the stop supports a
finding that Johnson was seized. Johnson’s stop was
more than a momentary pause before fleeing.
Johnson stopped when Officer Wilson blocked his path
and stayed throughout Officer Wilson’s altercation
with Brown. The fact that Johnson ran away after
Officer Wilson shot Brown in the arm does not mean
that Johnson did not first submit to Officer Wilson’s
authority. Rather, Johnson alleges that he stopped

23a
when he was first blocked by Officer Wilson, thereby
submitting to Officer Wilson’s authority, and that he
ran solely out of fear for his life after the first shots
were fired. Cf. United States v. Hayden, 759 F.3d 842,
847 (8th Cir. 2014) (holding that there was no seizure
when officers pulled up alongside the suspects, shined
a flashlight, identified themselves as police, and
approached the suspects but did not block the ability
of the suspects to cross the street, did not touch the
suspects, and did not display a weapon); Baldwin, 496
F.3d at 217–18. Thus, viewing the facts in a light
most favorable to Johnson, Johnson has sufficiently
alleged that he was seized.
b. Objective Reasonableness
“[A] seizure, standing alone, is not sufficient for
section 1983 liability. The seizure must be
unreasonable.” Moore v. Indehar, 514 F.3d 756, 762
(8th Cir. 2008) (quoting McCoy v. City of Monticello,
342 F.3d 842, 847 (8th Cir. 2003)). Excessive force
claims are analyzed under the Fourth Amendment
reasonableness standard. Schoettle v. Jefferson Cty.,
788 F.3d 855, 859 (8th Cir. 2015); Graham v. Connor,
490 U.S. 386, 394 (1989). Courts “analyze this
question from the perspective ‘of a reasonable officer
on the scene, rather than with the 20/20 vision of
hindsight.’” Plumhoff v. Rickard, 134 S. Ct. 2012,
2020 (2014) (quoting Graham, 490 U.S. at 396).
Courts “thus ‘allo[w] for the fact that police officers
are often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.’” Id. (alteration in original)
(quoting Graham, 490 U.S. at 396–97). This inquiry
focuses on the totality of the circumstances, “including
the severity of the crime at issue, whether the suspect

24a
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest
or attempting to evade arrest by flight.” Schoettle,
788 F.3d at 859 (quoting Graham, 490 U.S. at 396).
Johnson argues that Officer Wilson’s use of his gun
during the seizure constitutes excessive force.
Defendants claim that, because, in their view, there
was no seizure, Johnson cannot claim Officer Wilson’s
use of force was excessive. Thus, Defendants offer no
arguments regarding the reasonableness of Officer
Wilson’s use of force.
“[F]orce is least justified against nonviolent
misdemeanants who do not flee or actively resist
arrest and pose little or no threat to the security of the
officers or the public.” Small v. McCrystal, 708 F.3d
997, 1005 (8th Cir. 2013) (alteration in original)
(quoting Brown v. City of Golden Valley, 574 F.3d 491,
499 (8th Cir. 2009)). Taking the allegations in
Johnson’s complaint as true, Officer Wilson stopped
Johnson and Brown because they were walking in the
middle of the street in violation of a municipal
ordinance.
Johnson and Brown were walking
peacefully down Canfield Drive when Officer Wilson
parked directly in their path. Johnson and Brown
stopped walking when Officer Wilson parked his car
and forcefully struck Brown with his car door. The
facts, as alleged, show that Brown and Johnson did
not flee from Officer Wilson and did not resist arrest.
Based on these facts, it was unreasonable for Officer
Wilson to draw his gun and shoot twice, striking
Brown in the arm. Thus, Johnson has sufficiently
alleged a violation of a constitutional right.

25a
2. Clearly Established Law
Having determined that Johnson has sufficiently
alleged a violation of a constitutional right, we move
to our next inquiry: whether Officer Wilson’s use of his
gun against Johnson and Brown constituted a clearly
established constitutional violation. Defendants offer
no arguments regarding whether it was clearly
established that Officer Wilson could not use deadly
force in these circumstances. Again, Defendants only
argue it was not clearly established that an officer
could violate an individual’s Fourth Amendment
rights where no seizure has occurred.
“A right is clearly established when that right is so
clear that a reasonable official would understand that
what he is doing violates that right.” Craighead v.
Lee, 399 F.3d 954, 962 (8th Cir. 2005). “The right to
be free from excessive force in the context of an arrest
is clearly established under the Fourth Amendment.”
Small, 708 F.3d at 1005. In Tennessee v. Garner, the
Supreme Court held that “[w]here the suspect poses
no immediate threat to the officer and no threat to
others, the harm resulting from failing to apprehend
him does not justify the use of deadly force to do so.”
471 U.S. 1, 11 (1985). Later, in Graham v. Connor,
the Supreme Court held that the use of force is
unconstitutional if, under objective standards of
reasonableness, the force is excessive. 490 U.S. 386,
396 (1989).
To be clearly established, however, the law “must
be ‘particularized’ to the facts of the case.” White v.
Pauly, 137 S. Ct. 548, 552 (2017) (per curiam) (quoting
Anderson v. Creighton, 483 U.S. 635, 640 (1987)).
While “general statements of the law are not
inherently incapable of giving fair and clear warning

26a
to officers, . . . in light of the pre-existing law the
unlawfulness must be apparent.”
Id. (citations
omitted). Thus, the general statements regarding the
constitutionality of use of force in “Garner and
Graham do not by themselves create clearly
established law outside ‘an obvious case.’” Id. (quoting
Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (per
curiam)).
“At least since Garner was decided nearly 20 years
ago, officers have been on notice that they may not use
deadly force unless the suspect poses a significant
threat of death or serious physical injury to the officer
or others.” Craighead, 399 F.3d at 962. Further, it is
clearly established that “[f]orce is least justified
against nonviolent misdemeanants who do not flee or
actively resist arrest and pose little or no threat to the
security of the officers or the public.” Small, 708 F.3d
at 1005 (quoting Brown, 574 F.3d at 499).
In Brown v. City of Golden Valley, this court held
the use of a Taser on a passenger in a car pulled over
for a misdemeanor, “who was not fleeing or resisting
arrest, who posed little to no threat to anyone’s safety,
and whose only noncompliance with the officer’s
commands was to disobey two orders to end her phone
call to a 911 operator” constituted excessive force. 574
F.3d at 499. And in Shekleton v. Eichenberger, this
court again held that the use of a Taser against a
suspected misdemeanant constituted excessive force.
677 F.3d 361 (8th Cir. 2012). In Shekleton, an officer
approached a man outside a bar to ask about what the
officer thought was an argument. Id. at 364. The
suspect answered the officer’s questions and followed
the officer’s direction to move away from the street
corner. Id. After further questioning, the officer
instructed the suspect to put his hands behind his

27a
back and, when the officer attempted to handcuff the
suspect, the officer and suspect fell to the ground. Id.
at 365. The officer then deployed his Taser. Id. We
held that “[u]nder these facts, [where the plaintiff]
was an unarmed suspected misdemeanant, who did
not resist arrest, did not threaten the officer, did not
attempt to run from him, and did not behave
aggressively towards him,” the officer’s use of the
Taser constituted excessive force. Id. at 366–67.
In accordance with White, these cases are
sufficiently particularized that a reasonable officer
would be on notice that use of deadly force in the
circumstances alleged in Johnson’s complaint was
unlawful. “While [the Supreme] Court’s case law
‘do[es] not require a case directly on point’ for a right
to be clearly established, ‘existing precedent must
have placed the statutory or constitutional question
beyond debate.’” White, 137 S. Ct. at 551 (alteration
in original) (quoting Mullenix v. Luna, 136 S. Ct. 305,
308 (2015)). Requiring a particularized case to show
clearly established law does not require us to abandon
logic. It is beyond dispute that a Taser involves less
force and, generally, causes less harm than a gun. It
follows that, if the use of a Taser in these
circumstances constitutes excessive force, the use of a
gun in these circumstances necessarily constitutes
excessive force. This Circuit’s previous cases “‘giv[e]
fair and clear warning’ to officers” that the use of
deadly force in these circumstances is unlawful. Id. at
552 (quoting United States v. Lanier, 520 U.S. 259,
271 (1997)).
At the time of the incident in this case, the law was
sufficiently clear to inform a reasonable officer that it
was unlawful to use deadly force against nonviolent,
suspected misdemeanants who were not fleeing or

28a
resisting arrest, posed little or no threat to the officer
or public, did not receive verbal commands to stop,
and whose only action was to stop walking when a
police car blocked their path. As a result, a reasonable
officer in Officer Wilson’s position would not have shot
his gun and the district court correctly denied
qualified immunity to Officer Wilson at this stage in
the proceedings.
B. Supervisory Liability
Johnson alleges that Chief Jackson has § 1983
liability due to his deliberate indifference to a pattern
of constitutional violations committed by officers in
his police department. Johnson claims that Chief
Jackson failed to train, supervise, and discipline
Ferguson police officers regarding unlawful seizures
and use of excessive force. Chief Jackson argues he is
entitled to qualified immunity and the district court
erred in denying the motion to dismiss on that basis.
“Section 1983 liability cannot attach to a
supervisor merely because a subordinate violated
someone’s constitutional rights.” Otey v. Marshall,
121 F.3d 1150, 1155 (8th Cir. 1997). “Rather, Chief
[Jackson] can be liable for Officer [Wilson’s]
constitutional violation only ‘if he directly
participated in the constitutional violation, or if his
failure to train or supervise the offending actor caused
the deprivation . . . .’” Id. (omission in original)
(quoting Tilson v. Forrest City Police Dep’t, 28 F.3d
802, 806 (8th Cir. 1994)). Further, where liability is
premised on a supervisor’s deliberate indifference to
misconduct, “[t]he supervisor must know about the
conduct and facilitate it, approve it, condone it, or turn
a blind eye for fear of what [he or she] might see.”
Kahle v. Leonard, 477 F.3d 544, 551 (8th Cir. 2007)

29a
(second alteration in original) (quoting Ripson v.
Alles, 21 F.3d 805, 809 (8th Cir. 1994)).
Johnson alleges that the detention and use of force
against Johnson and Brown was part of a pattern and
practice of unlawful detentions and use of excessive
force by the Ferguson Police Department. Further,
Johnson alleges that Chief Jackson (1) failed to
properly hire, train, discipline, and supervise officers;
(2) failed to adopt and enforce polices, practices, and
procedures
regarding
the
Ferguson
Police
Department’s internal affairs; and (3) condoned the
practice of unlawful detentions and use of excessive
force by not investigating and rarely reviewing claims
of officer misconduct. To support the claims in his
complaint, Johnson quotes the Department of
Justice’s (“DOJ”) findings following its investigation
of the Ferguson Police Department. The DOJ report
notes that the Ferguson Police Department and court
system work together to generate revenue. Further,
the report notes that the Ferguson Police Department
does not supervise its officers’ conduct, particularly
with regards to officer use of force. These allegations
sufficiently state a claim for supervisory liability
under § 1983.
“When a supervising official who had no direct
participation in an alleged constitutional violation is
sued for failure to train or supervise the offending
actor, the supervisor is entitled to qualified immunity
unless plaintiff proves that the supervisor (1) received
notice of a pattern of unconstitutional acts committed
by a subordinate, and (2) was deliberately indifferent
to or authorized those acts.” S.M. v. Krigbaum, 808
F.3d 335, 340 (8th Cir. 2015).

30a
As discussed above, Johnson alleges that Chief
Jackson condoned the unconstitutional acts by failing
to investigate or review claims of officer misconduct.
Specifically, Johnson alleges that “[w]hen reviewing
use of force, Chief Thomas Jackson rarely reviews
offense reports, and has never overturned a
supervisor’s determination of whether a use of force
fell within [Ferguson Police Department] policy.” The
fact that Chief Jackson received reports involving use
of force indicates that he knew about Ferguson police
officers’ conduct. Thus, Johnson has sufficiently
alleged that Chief Jackson had notice of the
unconstitutional acts committed by his officers.
Further, by failing to review offense reports and hold
officers accountable for excessive force, Chief Jackson
was deliberately indifferent to the unconstitutional
practices carried out by Ferguson police officers. As a
result, the district court did not err by denying Chief
Jackson qualified immunity.
C. Municipal Liability
Defendants claim that this court has pendent
appellate jurisdiction to review the district court’s
denial of Defendants’ motion to dismiss as to the City
of Ferguson. “‘[W]hen an interlocutory appeal is
before us . . . as to the defense of qualified immunity,
we have jurisdiction also to decide closely related
issues of law,’ i.e., pendent appellate claims.” Kincade
v. City of Blue Springs, 64 F.3d 389, 394 (8th Cir.
1995) (quoting Drake v. Scott, 812 F.2d 395, 399 (8th
Cir. 1987)). “[A] pendent appellate claim can be
regarded as inextricably intertwined with a properly
reviewable claim on collateral appeal only if the
pendent claim is coterminous with, or subsumed in,
the claim before the court on interlocutory appeal—
that is, when the appellate resolution of the collateral

31a
appeal necessarily resolves the pendent claim as
well.” Id. (alteration in original) (quoting Moore v.
City of Wynnewood, 57 F.3d 924, 930 (10th Cir. 1995)).
Defendants argue that the question of municipal
liability is inextricably intertwined with the question
of qualified immunity. This argument rests on
Defendants’ claim that there was no seizure at all and,
thus, no constitutional violation. Thus, Defendants
argue, if Johnson’s allegations do not sustain his §
1983 claim against Officer Wilson and Chief Jackson,
the allegations cannot sustain the § 1983 claim
against the City of Ferguson.
Our decision to uphold the district court’s denial of
qualified immunity to Officer Wilson and Chief
Jackson at this stage in the proceedings does not
resolve whether Johnson stated a claim for municipal
liability. Whether Officer Wilson and Chief Jackson
are entitled to qualified immunity turns on whether it
was clearly established that Officer Wilson violated
Johnson’s Fourth Amendment rights. The City of
Ferguson’s municipal liability, however, turns on
whether the constitutional violation was caused by
the City “engaging in a widespread and persistent
pattern of unconstitutional misconduct that
municipal policymakers were either deliberately
indifferent to or tacitly authorized.” Davis v. White,
794 F.3d 1008, 1014 (8th Cir. 2015) (quoting Russell
v. Hennepin Cty., 420 F.3d 841, 849 (8th Cir. 2005)).
Thus, these issues are not inextricably intertwined
because they involve two separate questions. See
Veneklase v. City of Fargo, 78 F.3d 1264, 1270 (8th
Cir. 1996) (holding that the denial of summary
judgment on a municipal liability claim was not
inextricably intertwined with the underlying qualified
immunity appeal because resolving the relevant

32a
claims “require[d] entirely different analyses”). As a
result, we do not have jurisdiction to review the City
of Ferguson’s liability. See id.
III.
For the foregoing reasons, we affirm the district
court’s denial of qualified immunity to Officer Wilson
and Chief Thomas and dismiss the rest of the appeal
for lack of jurisdiction.
***
WOLLOMAN, Circuit Judge, dissenting. With all
due respect, I disagree with the majority opinion’s
conclusion that Johnson was seized within the
meaning of the Fourth Amendment when Officer
Wilson crudely ordered him and his companion Brown
to get back to the sidewalk, parked his vehicle in such
a manner as to block their direct line of travel, and
then engaged in an armed conflict with Brown.
Because Johnson himself was neither physically
restrained nor prevented from proceeding to the
sidewalk in compliance with the officer’s command
rather than fleeing as he did, I believe that the
question before us is alike to that presented in
California v. Hodari D., 499 U.S. 621 (1991), and that
our answer should be the same.
The narrow question before us is whether, with
respect to a show of authority as with respect to
application of physical force, a seizure occurs
even though the subject does not yield. We hold
that it does not.

Id. at 626. Likewise, as the Court wrote in Brendlin
v. California, 551 U.S. 249, 254 (2007), “[T]here is no
seizure without actual submission.”

33a
An unconstitutional seizure in the circumstances
presented by this case occurs only upon the
intentional acquisition of physical control terminating
freedom of movement through means intentionally
applied. Brower v. City of Inyo, 489 U.S. 593, 596–97
(1989). Such a termination occurred in Brower as a
result of Brower’s fatal impact with the policeestablished roadblock, just as it did in Garner, in
which Garner’s flight was terminated by the officer’s
bullet. Tennessee v. Garner, 471 U.S. 1 (1985).
Here, however, Johnson’s status during his flight
from Officer Wilson was like that of the moonshinecarrying defendant’s during the course of his flight in
Hester v. United States, 265 U.S. 57, 58 (1924). See
Hodari D., 499 U.S. at 629; Brower, 489 U.S. at 597–
98.
I would reverse the district court’s judgment and
remand with directions to dismiss the complaint.

34a
APPENDIX C
Case No. 4:15-cv-003832 AGF
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
DORIAN JOHNSON,
Plaintiff-Appellee
FILED
Mar. 15, 2016

v.
CITY OF FERGUSON et al.,
Defendants-Appellees

MEMORANDUM AND ORDER
This matter is before the Court on the joint
motion of Defendants City of Ferguson, Missouri
(“Ferguson”), Ferguson former Police Chief Thomas
Jackson, and Ferguson former Police Officer Darren
Wilson, to dismiss Plaintiff Dorian Johnson’s
complaint for failure to state a claim, pursuant to
Federal Rule of Civil Procedure 12(b)(6). For the
reasons stated below, this motion shall be granted in
part and denied in part.
BACKGROUND
In reviewing the motion to dismiss, the Court must
accept Plaintiff’s allegations as true and construe
them in Plaintiff’s favor. The facts, as alleged in the
complaint, are as follows. On August 9, 2014, at
approximately 12:00 noon, Plaintiff and Michael
Brown, Jr., both African-American males, were
“peacefully and lawfully walking down Canfield Drive
in Ferguson, Missouri.” A marked police vehicle

35a
driven by Wilson stopped next to Plaintiff and Brown,
and Wilson ordered the pair to “Get the f*ck on the
sidewalk.”
Wilson continued to drive his vehicle several
yards, put it into reverse, and parked it at an angle to
block the path of Plaintiff and Brown, stopping the
vehicle within inches of Brown. The complaint alleges
that Wilson forcefully opened his door which struck
Brown, and then reached through his open window
and grabbed Brown who was closer to Wilson than
was Plaintiff. Wilson threatened to shoot his weapon.
As Brown struggled to break free, Wilson discharged
his weapon twice, striking Brown in the arm. Fearing
for his life, Plaintiff ran away from Wilson
“simultaneously with Brown.” Wilson did not order
Plaintiff or Brown to stop or freeze, but withdrew his
weapon and fired “at Plaintiff [and Brown]” as they
fled, striking Brown several more times (and killing
him). Plaintiff alleges that these events caused him
to suffer “psychological injury, severe emotional
distress, medical expenses, lost wages . . . and other
loses to be proven at trial.” (Doc. No. 8.)
Plaintiff alleges that he and Brown were stopped
(within the meaning of the Fourth Amendment) by
Wilson when his police car blocked their path, that
this stop was “without reasonable suspicion of
criminal activity,” and that Wilson lacked “reasonable
suspicion, or legal justification to detain Plaintiff.”
(Doc. No. 8 at 7-9.) The four-count complaint, filed in
state court on April 29, 2015, brings claims pursuant
to 42 U.S.C. § 1983, for unconstitutional detention and
use of excessive force in violation of the Fourth and
Fourteenth Amendments (Count I); and under
Missouri state law, for assault (Count II), intentional
infliction of emotional distress (Count III), and in the

36a
alternative, negligent infliction of emotional distress
(Count IV). Each claim is brought against all
Defendants, with the § 1983 claims against Wilson
and Jackson in both their official and individual
capacities, and the state tort claims against Jackson
and Ferguson under the theory of respondeat
superior.
The complaint claims that Jackson and Ferguson
are also liable for “fail[ing] to intervene” in the actions
of Wilson, in light of their perpetration of a pattern
and practice of unconstitutional and racially
discriminatory policing which sanctioned police
officers’ use of unnecessary force and unlawful
seizures, as well as Jackson’s and Ferguson’s
prioritization of the collection of fines over ensuring
public safety. In addition to claiming that he was the
direct victim of assault by Wilson, Plaintiff also
asserts a claim for “transferred intent” assault, based
on Wilson’s shooting at Brown.
The complaint requests compensatory damages,
punitive damages, attorney’s fees, and an injunction
preventing Ferguson and the Ferguson Police
Department from engaging in unlawful detainment,
assault, and excessive use of force. The complaint
further alleges that “Defendant City of Ferguson
maintains a liability insurance policy and has thus
waived sovereign immunity for tort liability.” (Doc.
No. 8 at 3.)
In the complaint, Plaintiff quotes extensively from
a report by the Department of Justice (“DOJ”),
attached as an exhibit to Plaintiff’s memorandum in
opposition to this motion to dismiss, disclosing the
findings of the DOJ’s investigation of the Ferguson
Police Department following the shooting death of

37a
Brown.1 The report notes, in pertinent part, that the
Ferguson Police Department and Ferguson court
system work in concert to maximize fine collection to
bolster Ferguson’s revenue. Id. at 5–6. The report also
found that the Ferguson Police Department routinely
fails to supervise the conduct of its officers,
particularly with regards to their use of force, which
serves to condone officer misconduct. Id. at 6.
On May 26, 2015, Defendants removed the case to
this Court under 28 U.S.C. § 1331, on the basis of
federal question jurisdiction.
ARGUMENTS OF THE PARTIES
Defendants’ Arguments
Defendants first argue that Count I should be
dismissed as to Jackson and Wilson, in their
individual capacities, on the basis of qualified
immunity, because Plaintiff’s allegation that he was
seized by Wilson fails as he did not plead that he was
struck by a bullet, and, in fact, he fled the scene after
shots were fired. They assert that as a result, Plaintiff
also failed adequately to plead an excessive force
claim, because the Fourth Amendment only prohibits
the use of excessive force during a seizure.
Defendants assert that thus there was no underlying
constitutional violation, and that even if there was
one, “the law was not clearly established on August 9,
2014, that firing gunshots that fail to contact a
suspect where the suspect flees the scene constituted
a seizure for purposes of unlawful detention, excessive
force, and failure to intervene.” (Doc. No. 5 at 11.)

1 Plaintiff also attached the DOJ’s separate investigation into

the events surrounding the shooting death of Brown.

38a
Defendants argue that Jackson cannot be held
liable for failure to intervene for the further reason
that there is no allegation that he was at or near the
encounter at the time of the alleged seizure and use of
excessive force by Wilson. Further, Defendants argue
that Count I fails to state a claim against Ferguson,
because municipalities may not be liable under § 1983
unless their officers committed a constitutional tort,
and Plaintiff has failed to show that any underlying
constitutional violation occurred in this case.
Additionally, Defendants argue that the § 1983 claims
against Jackson and Wilson in their official capacities
should be dismissed, as they are essentially claims
against Ferguson, and are therefore redundant to
claims against Ferguson, and that Ferguson is
immune from an award of punitive damages
regarding Plaintiff’s claim under § 1983.
Defendants argue that Plaintiff’s request for
injunctive relief should be dismissed because it is
moot and/or not ripe, in that the alleged constitutional
violations against Plaintiff have already occurred, and
there are no allegations supporting a finding that
Plaintiff will again be subject to the same actions and
conditions which give rise to this action. Defendants
contend that any future harms pleaded by Plaintiff
are purely speculative.
With respect to the state law claims, Defendants
argue that Count II for assault fails to state a claim
under Missouri law, because Plaintiff only pleaded
that Wilson attempted to, and did, shoot Brown rather
than Plaintiff. Defendants argue that there can be no
transferred intent in assault cases. Defendants
contend that Counts III and IV for intentional and
negligent infliction of emotional distress, respectively,
should be dismissed because there is no factual

39a
support in the complaint from which to infer that
Plaintiff sustained “bodily harm,” as required for
Count III, or that his emotional distress was
“medically significant,” as required for Count IV.
Moreover, Defendants argue that Ferguson is entitled
to sovereign immunity with respect to the state law
claims, under Missouri Revised Statute § 537.600,
because Plaintiff has failed adequately to plead any
exception to Missouri’s sovereign immunity statute.
Finally, Defendants argue that under the
“American Rule,” litigants each bear their own
attorneys’ fees, and Plaintiff has not pleaded any
exception to this rule which would allow for the
recovery of attorney’s fees on his state law claims.
Plaintiff’s Response
With respect to his claims under § 1983, Plaintiff
argues first that Wilson’s conduct toward him
constituted an unlawful seizure under the Fourth and
Fourteenth Amendments.
Plaintiff claims that
Defendants’ focus on the shots fired by Wilson as
Brown and Plaintiff fled is misplaced. Plaintiff claims
that the actual seizure occurred when Wilson used his
vehicle to block Plaintiff’s path, forcing him to stop,
and brandished his firearm, which made Plaintiff
reasonably feel that he was not free to leave. Plaintiff
asserts that when he later fled from Wilson, it was not
because he felt free to leave, but rather because he
feared for his life. Moreover, because Wilson lacked
the requisite reasonable suspicion to make such a
stop, Plaintiff contends that the seizure was unlawful.
Plaintiff notes that Defendants have not suggested
that Wilson possessed a reasonable suspicion that
Plaintiff was involved in criminal activity at the time
he made the stop. Plaintiff argues that the facts as

40a
pled show that Wilson used unreasonable force during
the encounter, and that Defendants have not disputed
this claim other than by arguing that there was no
underlying wrongful seizure.
Plaintiff argues that Jackson “failed to intervene”
in the sense that he and the Ferguson Police
Department failed to “implement an intervention
system to identify officers who tend to use excessive
force or the need for more training.”2 Plaintiff argues
that, but for Jackson’s failure to implement such a
system, Wilson’s unlawful acts may never have
occurred.2
Plaintiff contests Defendants’ assertion that
Wilson and Jackson, in their individual capacities, are
entitled to qualified immunity at the motion to
dismiss stage. Plaintiff argues that he has stated a
claim that Wilson’s conduct violated his constitutional
rights against unreasonable seizure and use of
excessive force by the police. Moreover, Plaintiff
contends that it was clearly established, at the time of
his encounter with Wilson, that Wilson’s conduct
constituted a seizure which required reasonable
suspicion that Plaintiff was involved in criminal
activity, and that shooting at Plaintiff as he ran away
was unconstitutional. According to Plaintiff, whether
or not the force used by Wilson was actually excessive
is a question for a jury to decide.
Plaintiff also argues that Jackson is not entitled to
qualified immunity because Plaintiff has shown,
through his use of the DOJ’s investigation of the
Ferguson Police Department, that such customs and
2 The Court interprets this as a failure to supervise claim which

is discussed below.

41a
practices existed in the Ferguson Police Department,
and that Jackson was deliberately indifferent to them.
Finally, because Plaintiff has stated a claim that
Wilson violated Plaintiff’s constitutional rights, and
alleged that the violations occurred under a municipal
policy and practice, Plaintiff argues that he has stated
a § 1983 claim against Ferguson.
Plaintiff argues that he has stated a claim for state
law assault in Count II of his complaint by alleging
each element of an assault under Missouri law: that
Wilson fired his weapon at Plaintiff and Brown in an
attempt to cause imminent bodily harm, or
apprehension of such, and that Wilson was successful
in creating such apprehension in Plaintiff. With
respect to Counts III and IV, Plaintiff maintains that
the allegations in his complaint are sufficient to state
claims for infliction of emotional distress, under
Missouri law. Plaintiff cites cases for the proposition
that no medical testimony is required to prove a claim
for either negligent or intentional infliction of
emotional distress, and that the allegations that he
suffered “psychological injury” and “severe emotional
distress” are enough to raise the inference that his
emotional distress resulted in bodily injury and was
medically significant. Plaintiff contends that evidence
on these points will be introduced at trial and that
dismissing these claims at this stage in the
proceedings is improper.
Plaintiff also cites law for the proposition that he
has stated a claim for negligent infliction of emotional
distress in a bystander action, as he alleges that
Wilson should have known that firing his weapon
would endanger Plaintiff, Plaintiff was within the
“zone of danger” of Wilson’s shots, and Wilson’s
actions caused Plaintiff to fear for his life.

42a
Plaintiff argues that redundancy is not a
persuasive basis for a Rule 12(b)(6) dismissal, and
that the Court should not dismiss his official capacity
claims against Jackson and Wilson for this reason.
Plaintiff next argues that Ferguson is not entitled
to dismissal of the state law claims against it on the
grounds of sovereign immunity, because Missouri’s
sovereign immunity statute protects public entities
from state tort claims only when they are involved in
governmental functions, but not when they are
involved in proprietary functions. Although police
functions are generally governmental in nature,
Plaintiff argues that the main focus of the Ferguson
Police Department was not public safety, but
generating revenue for Ferguson through aggressive
fine enforcement. Plaintiff cites to the DOJ report for
this proposition, and argues that he has at least stated
a claim that the challenged actions of the Ferguson
Police Department during the relevant time period
were proprietary, not governmental.
Additionally, Plaintiff notes that he specifically
pleaded in his complaint that Ferguson maintains a
liability insurance policy, which operates as a waiver
of sovereign immunity for tort liability.
With respect to the injunctive relief he requests,
Plaintiff first argues that his request is not moot
because there is an actual case or controversy, in that
Ferguson is engaged in an ongoing pattern and
practice of racial bias and unconstitutional policing,
which was the driving force behind the deprivations of
Plaintiff’s rights.
Plaintiff argues that it is
Defendants who have the burden of proving mootness,
and that in the light of Plaintiff’s allegations of
Ferguson’s continuing constitutional violations, they

43a
have not met this burden. Plaintiff also argues that
his claim is ripe, in that it is based on events that are
likely to continue to occur without judicial
intervention.
Finally, Plaintiff argues that his claims for
attorneys’ fees and punitive damages should not be
dismissed entirely. Plaintiff argues that 23 U.S.C. §
1988 authorizes the recovery of attorney’s fees in §
1983 suits, and that his claims for fees are thus proper
with respect to Count I. Plaintiff also asks the Court
not to dismiss his requests for attorneys’ fees in the
remaining counts, as intentional misconduct or other
special circumstances may be revealed during the
course of litigation, entitling him to attorney’s fees
under Missouri law. Plaintiff admits that he is not
entitled to punitive damages against Ferguson, and
clarifies that his request for punitive damages is only
against Wilson and Jackson in their individual
capacities.
Defendants’ Reply
In their reply, Defendants urge the Court to ignore
the copies of the DOJ’s reports on the investigations
into the shooting death of Brown, and into the
Ferguson Police Department generally. Defendants
argue that courts must generally ignore materials
outside the pleadings when considering a motion to
dismiss under Rule 12(b)(6). Defendants argue that
the Court could only consider these materials if it took
judicial notice of them, something Defendants argue
is improper because the investigations relied on
unsworn hearsay statements of several unidentified
individuals, were issued without any fact-finding
hearing or opportunity for Ferguson or the Ferguson
Police Department to respond, and were prepared in

44a
anticipation of litigation surrounding the shooting
death of Brown. Additionally, Defendants argue that
even if the Court were to consider the DOJ reports,
the documents do not support Plaintiff’s allegations
and arguments about what occurred during his
encounter with Wilson.
Defendants also argue that Plaintiff has failed to
plead an exception or waiver to the doctrine of
sovereign immunity. Defendants contend that police
conduct is governmental in nature, and that even
aggressive enforcement of fines is within the realm of
maintaining the public safety.
Additionally,
Defendants argue that Plaintiff’s allegation that
“Defendant City of Ferguson maintains a liability
policy and has thus waived sovereign immunity for
tort liability” is insufficient, as a municipality does not
waive immunity by purchasing a policy which
exempts coverage for liability barred by sovereign
immunity. Defendants cite Missouri cases for the
proposition that, because Plaintiff failed to allege that
Ferguson’s insurance policy covers the claims at issue
in this case, he has not sufficiently pled a waiver to
sovereign immunity. Therefore, Defendants argue
that the state law claims against Ferguson should be
dismissed.
DISCUSSION
To survive a motion to dismiss, a complaint must
contain sufficient factual matter, which, when
accepted as true, states “a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007)). “Threadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements,” will not pass muster. Id. The

45a
reviewing court must accept the plaintiff’s factual
allegations as true and construe them in the plaintiff’s
favor, but is not required to accept the legal
conclusions the plaintiff draws from the facts alleged.
Id.; Retro Television Network, Inc. v. Luken
Comm’cns, LLC, 696 F.3d 766, 768–69 (8th Cir. 2012).
Claims under § 1983
“Section 1983 imposes liability for certain
actions taken under color of law that deprive a person
of a right secured by the Constitution and laws of the
United States.” Dossett v. First State Bank, 399 F.3d
940, 947 (8th Cir. 2005) (citation omitted).

1. Did a Seizure Occur?
The Fourth Amendment to the United States
Constitution forbids the unreasonable seizure of
persons. U.S. Const. Amend. IV. This prohibition
applies to the states through the Fourteenth
Amendment. “In determining whether a person has
been seized for Fourth Amendment purposes, the
relevant question is whether, in view of the totality of
circumstances surrounding the incident, a reasonable
person would have believed he was free to leave.”
United States v. Johnson, 326 F.3d 1018, 1021 (8th
Cir. 2003). “So long as a reasonable person would feel
free to disregard the police and go about his business,
the encounter is consensual and no reasonable
suspicion is required.” United States v. Hayden, 759
F.3d 842, 846 (8th Cir.) (citation omitted), cert.
denied, 135 S. Ct. 691 (2014). Factors considered by
courts may include the presence of several officers, a
display of a weapon by an officer, physical touching of
the person, or the use of language or tone of voice
indicating that compliance with the officer’s request
might be compelled.
United States v. Flores-

46a

Sandoval, 474 F.3d 1142, 1145 (8th Cir. 2007). If an

officer, “by means of physical force or show of
authority” has in some way stopped or otherwise
restrained the liberty of an individual, a seizure has
occurred. United States v. Vera, 457 F.3d 831, 835
(8th Cir. 2006). “To be a violation of the Fourth
Amendment, the restraint in liberty must be
effectuated through means intentionally applied.”
McCoy v. City of Monticello, 342 F.3d 842, 847 (8th
Cir. 2003) (citation omitted).
Here, upon consideration of the totality of the
circumstances, the Court believes that a close
question is presented as to whether a seizure
occurred, especially given that Plaintiff fled from the
scene. Much depends on the timeframe within which
events unfolded. Taking the allegations in the
complaint as true for the purposes of the present
motion, Wilson reversed his marked police vehicle and
stopped it inches from Plaintiff and Brown, blocking
their path, after yelling at them to get on the
sidewalk. Wilson drew his weapon, and shot out of his
window, hitting Brown. Under these circumstances,
depending on the timing of these events, the Court
cannot say that as a matter of law, that Plaintiff was
not seized. Thus, the Court concludes that Plaintiff
has stated a claim that Wilson seized him, for Fourth
Amendment purposes. Cf. Hayden, 759 F.3d at 846
(holding that the defendant was not seized, for Fourth
Amendment purposes, when a police officer shined a
flashlight on him and said “Police,” the officer and
another officer pulled their vehicle alongside
defendant and his companion, who were standing
near a vacant house; the officers did not block the
ability of the defendant and his companion to cross the

47a
street, did not touch the men, and did not display
weapons).

2. Was the Seizure Unreasonable?
Even where a Fourth Amendment seizure has
occurred, a plaintiff only states a claim under § 1983
if the seizure was unreasonable. A law enforcement
officer may detain a person for investigation without
probable cause for arrest if the officer “has a
reasonable suspicion supported by articulable facts
that criminal activity may be afoot.” United States v.
Maltais, 403 F.3d 550, 554 (8th Cir. 2005) (quoting
Terry v. Ohio, 392 U.S. 1, 21 (1968)). “Whether the
particular facts known to the officer amount to an
objective and particularized basis for a reasonable
suspicion of criminal activity is determined in light of
the totality of the circumstances.” Id. (citations
omitted).
At some later stage of the case, Defendants may be
able to demonstrate the reasonableness of the seizure
(assuming one occurred), however, in their motion to
dismiss,
Defendants
did
not
dispute
the
reasonableness of the seizure, but merely assert that
no seizure occurred. Construing all facts in favor of
Plaintiff, Plaintiff has sufficiently alleged that the
seizure by Wilson was unreasonable, and has thus
stated a claim under § 1983. The Court will deny
Defendants’ motion to dismiss with respect to
Plaintiff’s claims for unconstitutional seizure.

3. Excessive Force
“A claim that law-enforcement officers used
excessive force to effect a seizure is governed by the
Fourth Amendment’s reasonableness standard.”
Plumhoff v. Rickard, 134 S. Ct. 2012, 2020 (2014)

48a
(citing Graham v. Connor, 490 U.S. 386, 395 (1989)).
In determining whether the force used to effectuate a
particular seizure is “reasonable” under the Fourth
Amendment, courts consider the severity of the crime
at issue, whether the suspect posed an immediate
threat to the safety of the officer or others, and
whether he was actively resisting arrest or
attempting to evade arrest by flight. Schoettle v.
Jefferson Cnty., 788 F.3d 855, 859 (8th Cir. 2015).3
Whether an officer’s use of force is reasonable is
judged “from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight.” Plumhoff, 134 S. Ct. at 2020 (citation
omitted). Thus, courts must “allow for the fact that
police officers are often forced to make split-second
judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.” Id.
(citation omitted); see also Tennessee v. Garner, 471
U.S. 1, 11 (1985) (“Where the officer has probable
cause to believe that the suspect poses a threat of
serious physical harm, either to the officer or to
3 In addition, there may be a requirement of “actual injury”

which results from the use of force, though this injury may be de
minimus. Davis v. White, 794 F.3d 1008, 1012 (8th Cir. 2015);
Chambers v. Pennycook, 641 F.3d 898, 905–06 (8th Cir. 2011).
Courts do not equate “actual” injury” in this context with
physical, as opposed to mental, injury. See Vondrak v. City of
Las Cruces, 535 F.3d 1198, 1208 (10th Cir. 2008) (“We have
consistently rejected a bright-line rule requiring plaintiffs to
demonstrate physical injury when bringing excessive force
claims.”); Anderson v. Willis, 917 F. Supp. 2d 1190, 1198 (D. Kan.
2013). Although not directly addressing this matter, in Dawkins
v. Graham, 50 F.3d 532, 535 (8th Cir. 1995), the Eighth Circuit
held that one of the plaintiffs met the actual injury requirement
due to experiencing post traumatic stress disorder.

49a
others, it is not constitutionally unreasonable to
prevent escape by using deadly force.”).
Here, it is possible that, at a later stage in this
case, Wilson will establish the reasonableness of his
shooting at Plaintiff. However, for the purposes of
this motion, and construing all facts in the light most
favorable to Plaintiff, the Court finds that Plaintiff
has stated a claim of use of excessive force by Wilson.

4. Supervisory Liability
Supervisory personnel are not liable under § 1983
for the actions of their subordinates, “absent a
showing of direct responsibility for the improper
action or personal involvement of the officer being
sued.” Burke v. Mo. Dep’t of Corr., No. 4:08CV2000
CDP, 2009 WL 1210625, at *1 (E.D. Mo. Apr. 30, 2009)
(citations omitted). However, a supervisor may be
found liable for failure to supervise or control his
subordinates where the plaintiff shows the supervisor
to have been deliberately indifferent or to have tacitly
authorized the offensive acts by failing to take
remedial steps following notice of a pattern of such
acts by subordinates. Id. Mere negligence of the
supervisor is insufficient; he “must know about the
conduct and facilitate it, approve it, condone it, or turn
a blind eye for fear of what [he] might see.” Kahle v.
Leonard, 477 F.3d 544, 551 (8th Cir. 2007) (citation
omitted); see also Hahn v. McLey, 737 F.2d 771, 773
(8th Cir. 1984) (“[A] supervisor may be liable for the
acts of a subordinate if injury is inflicted upon the
plaintiff as a result of a breach of the supervisor’s duty
to train, supervise, or control the actions of
subordinates.”).
Here, Plaintiff has alleged that Wilson’s
unreasonable detention of, and use of excessive force

50a
against, Plaintiff (and Brown) was not an isolated
incident, but one in a long string of similar actions by
the Ferguson Police Department, largely against
members of the African-American community in
Ferguson. Plaintiff alleges that Jackson deliberately
turned a blind eye to this pattern of constitutional
violations by “do[ing] little to no investigation” and
“rarely” reviewing reports on his officers’ conduct.
Plaintiff claims that Jackson’s failure to properly
train and supervise his officers condoned a pattern
and practice of unlawful detainment and use of
excessive force by the Ferguson Police Department,
and had the effect of causing the deprivations of
Plaintiff’s constitutional rights.
These allegations, and the Court’s finding above
that Plaintiff stated claims for unreasonable seizure
and excessive force, are sufficient to state a claim
against Jackson for supervisor liability under § 1983.
See Rohrbough v. Hall, No. 4:07CV00996 ERW, 2008
WL 4722742, at *13 (E.D. Mo. Oct. 23, 2008) (denying
motion to dismiss § 1983 claim against a supervisory
board, finding that the defendants’ alleged failure to
inquire into uses of excessive force were “tantamount
to turning ‘a blind eye,’” and stated a claim for
deliberate indifference). Therefore, the Court will
deny Defendants’ motion to dismiss Plaintiff’s § 1983
claims against Jackson, in his individual capacity.

5. Qualified Immunity
As noted above, Defendants argue that the § 1983
claims against Jackson and Wilson, in their individual
capacities, should be dismissed on the basis of
qualified immunity. Under the doctrine of qualified
immunity, “a court must dismiss a complaint against
a government official in his individual capacity that

51a
fails to state a claim for violation of clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Hager v. Ark.
Dep’t of Health, 735 F.3d 1009, 1013 (8th Cir. 2013)
(citation omitted). “A clearly established right is one
that is sufficiently clear that every reasonable official
would have understood that what he is doing violates
that right.” Mullenix v. Luna, 136 S. Ct. 305, 308
(2015) (citation omitted).
When a supervising official who had no direct
participation in an alleged constitutional
violation is sued for failure to train or supervise
the offending actor, the supervisor is entitled to
qualified immunity unless plaintiff proves that
the supervisor (1) received notice of a pattern of
unconstitutional acts committed by a
subordinate, and (2) was deliberately
indifferent to or authorized those acts.

S.M. v. Krigbaum, 808 F.3d 335, 340 (8th Cir.

2015).

Because qualified immunity is an affirmative
defense, in the context of a motion to dismiss under
Rule 12(b)(6), the motion will only be granted when
the immunity is established “on the face of the
complaint.” Weaver v. Clarke, 45 F.3d 1253, 1255 (8th
Cir. 1995). At this stage of the proceedings, a court
will consider whether the plaintiff has “stated a
plausible claim for violation of a constitutional or
statutory right and whether the right was clearly
established at the time of the alleged infraction.”
Hager, 735 F.3d at 1013.
Here, as explained above, Plaintiff has stated a
plausible claim that a constitutional violation
occurred as a result of Wilson detaining him without

52a
reasonable suspicion, and that Plaintiff was subjected
to unconstitutional excessive force by Wilson. In
addition, viewed in the light most favorable to
Plaintiff, the facts alleged in the complaint support a
plausible claim that a reasonable officer in the
situation Wilson confronted would have known that
his actions violated clearly established federal law.
See, e.g., A.H. v. St. Louis Cnty., No. 4:14-CV-2069
CEJ, 2015 WL 4426234, at *3 (E.D. Mo. July 17, 2015)
(denying motion to dismiss on qualified immunity
grounds where facts alleged in the complaint
supported a plausible claim that the defendants knew
a detainee was suicidal and their actions in response
to that known risk were unreasonable).
Finally, Plaintiff has stated a § 1983 claim that the
constitutional deprivations he allegedly suffered were
due, at least in part, to Jackson’s failure to train and
supervise Ferguson Police Department officers, and
that a reasonable supervisor in Jackson’s place would
have known that his actions were unlawful in light of
clearly established law and information possessed by
Jackson at the time. See Wever v. Lincoln Cnty., 388
F.3d 601, 608 (8th Cir. 2004) (affirming the denial of
a supervisor’s motion for summary judgment, on the
basis of qualified immunity, with respect to a failure
to train claim). Accordingly, Defendants’ motion to
dismiss the individual capacity § 1983 claims against
Wilson and Jackson on the basis of qualified
immunity will be denied.

6. Municipal Liability
A municipality may not be liable under § 1983
unless a constitutional violation has been committed
pursuant to an official custom, policy, or practice.
Johnson v. Blaukat, 453 F.3d 1108, 1114 (8th Cir.

53a
2006). This custom, policy, or practice must have been
the “moving force” behind the violation. Luckert v.
Dodge Cnty., 684 F.3d 808, 820 (8th Cir. 2012). Where
a claim is based upon a municipality’s failure to adopt
or follow a needed policy or practice, the plaintiff
“must show that his alleged injury was caused by
municipal employees engaging in a widespread and
persistent pattern of unconstitutional misconduct
that municipal policymakers were either deliberately
indifferent to or tacitly authorized.” Davis v. White,
794 F.3d 1008, 1014 (8th Cir. 2015) (citation omitted).
As discussed above, Plaintiff has alleged that
Ferguson had a custom of failing to train and
supervise officers, and of failing to investigate claims
of unconstitutional seizures and excessive force,
which amounted to deliberate indifference. Plaintiff
has pled that these customs and policies in turn
caused him to suffer constitutional violations during
his encounter with Wilson. The Court believes that
Plaintiff’s allegations in this regard are sufficient to
withstand a motion to dismiss. Therefore, the Court
will deny Defendants’ motion to dismiss Plaintiff’s §
1983 claims against Ferguson.

7. Redundant Claims
As Defendants correctly argue, a § 1983 suit
against an officer in his official capacity is functionally
equivalent to a suit against the employing
governmental entity; thus, the Court will dismiss
without prejudice the § 1983 claims against Jackson
and Wilson, in their official capacities, as these claims
are redundant to the § 1983 claims asserted against
Ferguson. See Veatch v. Bartels Lutheran Home, 627
F.3d 1254, 1257 (8th Cir. 2010) (dismissing § 1983
claims against public officials in their official

54a
capacities as redundant to § 1983 claims made against
the governmental entity); Brown v. City of Ferguson,
No. 4:15CV00831 ERW, 2015 WL 4393960, at *1 (E.D.
Mo. July 16, 2015) (same).
State Tort Claims
When deciding state law claims, a federal court
must attempt to predict what the state supreme court
would decide if it were to address the issue; in
pursuing such endeavor, the federal court may
consider relevant state appellate court precedent,
analogous decisions, considered dicta, and any other
reliable data. Raines v. Safeco Ins. Co. of Am., 637
F.3d 872, 875 (8th Cir. 2011).

1. Assault
Under Missouri law, an assault is “any unlawful
offer or attempt to injure another with the apparent
present ability to effectuate the attempt under
circumstances creating a fear of imminent peril.”
Devitre v. Orthopedic Ctr. of St. Louis, LLC, 349
S.W.3d 327, 335 (Mo. 2011) (citation omitted). To state
a claim, a plaintiff must allege: “(1) defendant’s intent
to cause bodily harm or offensive contact, or
apprehension of either; (2) conduct of the defendant
indicating such intent[;] and (3) apprehension of
bodily harm or offensive contact on the part of the
plaintiff caused by defendant’s conduct.” Id.
Defendants’ only argument here is that Plaintiff
failed to state a claim that he (as opposed to Brown)
was assaulted by Wilson, and that Count II should
therefore be dismissed. However, the Court concludes
that Plaintiff’s allegations satisfy the pleading
requirement for all the elements of an assault against
him.

55a

2.

Intentional Infliction of Emotional
Distress

To state a claim for intentional infliction of
emotional distress under Missouri law, a plaintiff
must allege that “(1) the defendant acted in an
intentional or reckless manner; (2) the defendant’s
conduct [was] extreme or outrageous; and (3) the
defendant’s conduct caused severe emotional distress
that results in bodily harm.” Geran v. Xerox Educ.
Servs., Inc., 469 S.W.3d 459, 468 (Mo. Ct. App. 2015).
“Additionally, the plaintiff must demonstrate that the
sole intent in acting was to cause emotional distress.”
Id. Defendants’ only challenge to this claim is that the
injury alleged by Plaintiff is not sufficient as a matter
of law. The Court agrees with Plaintiff that he has
alleged sufficient injury (psychological injury, severe
emotional distress, and medical expenses) to survive
a motion to dismiss this claim. See State ex rel. Dean
v. Cunningham, 182 S.W.3d 561, 566 n.4 (Mo. 2006)
(explaining that “medically documented damages
need not be proven” for intentional infliction of
emotional distress).

3. Negligent Infliction of Emotional Distress
In Missouri, the elements of a claim for negligent
infliction of emotional distress are “(1) a legal duty of
the defendant to protect the plaintiff from injury, (2)
breach of the duty, (3) proximate cause, and (4) injury
to the plaintiff.” Henson v. Greyhound Lines, Inc., 257
S.W.3d 627, 629 (Mo. Ct. App. 2008). In addition, to
recover damages, a plaintiff must show “(1) that the
defendant should have realized that his conduct
involved an unreasonable risk of causing the distress,
and (2) that the emotional distress or mental injury is
medically diagnosable and of sufficient severity so as

56a
to be medically significant.” Id. Alternatively, a
plaintiff may state a claim as a bystander for
negligent infliction of emotional distress, by showing:
(1) that the defendant should have realized that his
conduct involved an unreasonable risk to the plaintiff,
(2) plaintiff was present at the scene of an injuryproducing, sudden event, (3) plaintiff was in the zone
of danger, i.e., placed in reasonable fear of physical
injury to her or his own person, and (4) the same
emotional distress at in a direct-victim case. Jarrett
v. Jones, 258 S.W.3d 442, 445–48 (Mo. 2008).
Here, the Court concludes that Plaintiff has failed
to state a claim for negligent infliction of emotional
distress as either a direct victim or bystander.
Plaintiff has not alleged that he sought or received
any medical treatment for his emotional distress, nor
does he specify what medically diagnosable condition
he suffered as a result of Wilson’s actions. See St.
Anthony’s Med. Ctr. v. H.S.H., 974 S.W.2d 606, 61012
(Mo. Ct. App. 1998) (holding that the plaintiff’s
allegations failed to plead an action for negligent
infliction of emotional distress, where the plaintiff
claimed he had suffered “severe emotional distress”
and was “caused to incur expenses for psychiatric and
psychological
treatment,
counseling,
and
medications,” because they did not contain facts from
which to infer medically diagnosable and medically
significant emotional distress); see also Brittingham
v. McConnell, No. 2:13CV00089 ERW, 2014 WL
4912184, at *7 (E.D. Mo. Sept. 30, 2014); Franklin v.
Pinnacle Ent., Inc., No. 4:12–CV–307 CAS, 2012 WL
6870447, at *13 (E.D. Mo. Aug. 9, 2012).

57a

4. Sovereign Immunity
As noted above, Defendants invoke Missouri’s
sovereign immunity statute, arguing that it bars
Plaintiff’s state law tort claims against Ferguson and
its officials. Missouri Revised Statute § 537.600
provides that public entities enjoy sovereign
immunity as it existed at common law, unless
immunity is waived, abrogated, or modified by
statute. Richardson v. City of St. Louis, 293 S.W.3d
133, 136 (E.D. Mo. 2009). Under this doctrine,
municipalities are entitled to sovereign immunity
when they are engaged in “governmental” functions –
ones performed for the common good of all – but not
when engaged in “proprietary” functions – those
performed for the special benefit or profit of the
municipality acting as a corporate entity. Jungerman
v. City of Raytown, 925 S.W.2d 202, 204 (Mo. 1996),
abrogated on other grounds by Southers v. City of
Farmington, 263 S.W.3d 603 (Mo. 2008). If sovereign
immunity applies, it does not need to be pled as an
affirmative defense, and it is the plaintiff’s pleading
burden to show that the defendant has waived such
immunity, or that a statutory exception to immunity
applies. Richardson, 293 S.W.3d at 137.
A public entity may waive sovereign immunity by
purchasing an insurance policy covering tort claims.
Mo. Rev. Stat. §§ 71.185 & 537.610.1. Whether
sovereign immunity is waived in a particular case
depends on whether the plaintiff’s claim falls within
the purposes covered by the defendant’s policy. Epps
v. City of Pine Lawn, 353 F.3d 588, 594 (8th Cir. 2003)
(citing Casey v. Chung, 989 S.W.2d 592, 593 (Mo. Ct.
App. 1998)).

58a
While it is true, as Plaintiff argues, that
municipalities are not entitled to sovereign immunity
for their proprietary functions, the conduct of police
officers is generally construed as governmental in
nature. See Jungerman, 925 S.W.2d at 204–05; St.
John Bank & Tr. Co. v. City of St. John, 679 S.W.2d
399, 401 (Mo. Ct. App. 1984) (“[T]he operation and
supervision of a police department . . . constitute the
exercise of a governmental function.”). Plaintiff relies
on the DOJ’s report for the proposition that Ferguson
and the Ferguson Police Department were more
concerned with using officers as means to collect fines
than as protectors of public safety, and argues that the
actions of Wilson were thus proprietary in nature.
However, even construing the facts in the light most
favorable to Plaintiff, Plaintiff’s allegations only
speak to the general motivations of Ferguson and the
Ferguson Police Department, and do nothing to show
that the specific acts of Wilson on the date in question
constituted a proprietary function.
Further, the Court finds that Plaintiff has failed to
meet his pleading burden to show that Ferguson’s
liability insurance policy acts as a waiver of sovereign
immunity in this case. While Plaintiff does plead that
Ferguson purchased a liability insurance policy, he
has failed to allege that this policy applies to the tort
claims at issue in the case, which he must do. See
Epps, 353 F.3d at 594 (“Because a public entity’s
liability for torts is the exception to the general rule of
sovereign immunity, a plaintiff must specifically
plead facts demonstrating that the claim is within this
exception to sovereign immunity.”); Martin v. Bd. of
Police Comm’rs of St. Louis City, No. 4:07-CV-1831
JCH, 2008 WL 1732925, at *2 (E.D. Mo. Apr. 10, 2008)
(same). However, rather than dismiss Plaintiff’s state

59a
law claims with respect to Ferguson, the Court will
allow Plaintiff to amend his complaint to plead
relevant facts, as appropriate, alleging that
Ferguson’s insurance policy covers Plaintiff’s tort
claims. Of course, Plaintiff must have a good faith
basis under Federal Rule of Civil Procedure Rule 11
for any such amended allegations.
Injunctive Relief
A claim for injunctive relief is properly dismissed
as moot “when the challenged conduct ceases and
there is no reasonable expectation that the wrong will
be repeated.” Roubideaux v. N.D. Dep’t of Corr. &
Rehab., 570 F.3d 966, 976 (8th Cir. 2009) (citation
omitted). In City of Los Angeles v. Lyons, 461 U.S. 95,
105 (1983), a case for damages and injunctive relief
brought by a plaintiff who was choked into
unconsciousness by the police, the Supreme Court
explained as follows, in holding that the plaintiff did
not present a justiciable claim for injunctive relief:
That Lyons may have been illegally choked by
the police on October 6, 1976, while presumably
affording Lyons standing to claim damages
against the individual officers and perhaps
against the City, does nothing to establish a
real and immediate threat that he would again
be stopped for a traffic violation, or for any
other offense, by an officer or officers who would
illegally choke him into unconsciousness
without any provocation or resistance on his
part.

Id. at 105.
The “heavy” burden of proving mootness falls on
the party asserting that the case is moot. Kennedy

60a

Building Assocs. v. Viacom, Inc., 375 F.3d 731, 745
(8th Cir. 2004) (citation omitted); see also Friends of
the Earth, Inc. v. Laidlaw Environmental Servs., Inc.,
528 U.S. 167, 189 (2000) (holding that a defendant
claiming that a case is moot “bears the formidable
burden of showing that it is absolutely clear the
allegedly wrongful behavior could not reasonably be
expected to recur.”) Here, however, the complaint is
devoid of any allegations whatsoever that Plaintiff
faces a real and immediate threat that he will again
be detained by the police without justification or be
subject to excessive force. Accordingly, his claim for
injunctive relief will be denied.
Attorney’s Fees and Punitive Damages

1. Attorney’s Fees
If Plaintiff prevails on any of his § 1983 claims, he
will be entitled to attorney’s fees under 42
U.S.C. § 1988. With respect to his state tort claims,
Missouri follows the American Rule, which provides
that, “absent statutory authorization or contractual
agreement, with few exceptions, each litigant must
bear his own attorney’s fee.” Henry v. Farmers Ins.
Co., 444 S.W.3d 471, 478 (Mo. Ct. App. 2014). The
special circumstances exception “is narrow and must
be construed strictly.” Goralnik v. United Fire & Cas.
Co., 240 S.W.3d 203, 210 (Mo. Ct. App. 2007).
“Missouri
courts
have
construed
unusual
circumstances to mean an unusual type of case or
unusually complicated litigation.” Wyper v. Camden
Cnty., 160 S.W.3d 850, 854 (Mo. Ct. App. 2005)
(citation omitted). This Court does not believe that
the Missouri Supreme Court would find that this case
qualifies for abrogation of the American Rule.

61a
Accordingly, Plaintiff’s request for attorney’s fees with
respect to his state law claims will be stricken.

2. Punitive Damages
Municipalities are immune from awards of
punitive damages regarding claims raised under
§ 1983. City of Newport v. Fact Concerts, Inc., 453
U.S. 247, 271 (1982). Accordingly, the Court will
strike Plaintiff’s requests for punitive damages with
respect to Ferguson.
CONCLUSION
Accordingly,
IT IS HEREBY ORDERED that the joint motion
(Doc. No. 4) of Defendants City of Ferguson, Missouri,
Police Chief Thomas Jackson, and Officer Darren
Wilson (Doc. No. 4) to dismiss Plaintiff Dorian
Jackson’s complaint is DENIED in part and
GRANTED in part, as follows:
The motion is denied with respect to Counts I, II,
and III of the complaint, except that the claims
against Defendants Thomas Jackson and Darren
Wilson in their official capacities, in Count I, are
dismissed as redundant.
The motion is granted with respect to Count IV of
the complaint.
The motion is granted with respect to Plaintiff’s
request for injunctive relief.
Plaintiff’s request for attorneys’ fees is stricken
with respect to Counts II.
Plaintiff’s request for punitive damages is stricken
with respect to Defendant the City of Ferguson.

62a
IT IS FURTHER ORDERED that on or before
March 29, 2016, Plaintiff may amend his complaint to
plead relevant facts, as appropriate, alleging that the
City of Ferguson’s insurance policy covers Plaintiff’s
state law tort claims. Failure to do so may result in
the dismissal of Counts II and IV of the complaint
against the City of Ferguson on the basis of sovereign
immunity.

AUDREY G. FLEISSIG
UNITED STATES DISTRICT JUDGE
Dated this a 15th day of March, 2016

63a
APPENDIX D

STATUTORY AND REGULATORY PROVISIONS
INVOVLVED
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act
or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the
District of Columbia.

